<html>
<title> - MOVING BEYOND THE FIRST FIVE YEARS: IMPROVING THE FUNCTIONALITY, GOVERNANCE, AND ACCOUNTABILITY OF THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   MOVING BEYOND THE FIRST FIVE YEARS: IMPROVING THE FUNCTIONALITY, 
 GOVERNANCE, AND ACCOUNTABILITY OF THE DEPARTMENT OF HOMELAND SECURITY 

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2008

                               __________

                           Serial No. 110-107

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                       U.S. GOVERNMENT PRINTING OFFICE 

42-865 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)
















































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress from 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas:
  Prepared Statement.............................................     3
The Honorable Ginny Browne-Waite, a Representative in Congress 
  from the State of Florida:
  Prepared Statement.............................................     6

                               Witnesses

The Honorable Paul A. Schneider, Acting Deputy Secretary, 
  Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                             For the Record

The Honorable Mike Rogers, a Representative in Congress from the 
  State of Alabama:
  Article........................................................    40

                                Appendix

Questions From Chairman Bennie G. Thompson.......................    47


   MOVING BEYOND THE FIRST FIVE YEARS: IMPROVING THE FUNCTIONALITY, 
 GOVERNANCE, AND ACCOUNTABILITY OF THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                       Wednesday, April 23, 2008

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:07 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Harman, Lowey, 
Jackson Lee, Christensen, Etheridge, Langevin, Cuellar, Clarke, 
Pascrell, King, Rogers, Dent, Davis of Tennessee and Miller.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony from Mr. Paul A. Schneider, Acting Deputy Secretary 
for the Department of Homeland Security, to evaluate the state 
of the Department as it moves beyond its first 5 years, and to 
assess the Department of Homeland Security's plans for 
undergoing its first Presidential transition in 2009.
    Good morning. I would like to welcome you, Mr. Deputy 
Secretary, on behalf of the members in this committee. Last 
September, as you know, you appeared before this committee for 
the first time. At that time you testified about GAO's report 
assessing the Department's progress over the last 4 years. GAO 
found that the Department's implementation of critical programs 
is substantially hindered by the lack of strategic planning and 
management, risk management, information sharing, agency 
transformation, partnership formation and internal and external 
coordination.
    Last September the committee pressed the Department to 
improve its functionality, governance and accountability. I am 
sure you and I can agree that the Department of Homeland 
Security must operate in the spirit of excellence in order to 
effectively secure the Nation. I hope your testimony 
demonstrates that the Department has taken affirmative steps to 
strategically plan for the transition from this administration 
to the next administration.
    History demonstrates that we are most vulnerable during a 
leadership transition. The World Trade Centers were first 
struck February 1993 at the start of the Clinton administration 
and then again in September 2001 during President Bush's first 
term. Similarly, the mass transit terrorist attacks occurred in 
Madrid just 3 days prior to Spain's 2004 election. England's 
Prime Minister Brown was installed for only 2 days when two 
bomb-laden cars were detected and disabled. Given the fact that 
DHS has never experienced a Presidential transition it is 
absolutely imperative that the Department is ready to carry out 
its mission.
    Now, Mr. Schneider, the last time you testified before the 
full committee, you had only been in the post of Under 
Secretary for Management for 9 months. The Department balked at 
the committee's request to send your predecessor, who was then 
responsible for managing the Department's day-to-day 
operations. Today the Department has again sent you to testify 
about the transition of the Department, but this time it is in 
the stead of Secretary Chertoff.
    What is even more unsettling is that when the committee 
sent the Department letters back in February about the 
committee's intent to examine the Department's ongoing 
transition process to ensure a seamless and orderly changeover, 
both you and Secretary Chertoff failed to share the information 
requested with this committee, which, as you know, is charged 
with oversight of the Department.
    Specifically, the Department claimed that the transition 
planning documents were, No. 1, under development; No. 2, 
constitute executive branch materials; and No. 3, that you 
would share them first with the incoming administration.
    Let me state emphatically that the refusal to answer this 
committee's inquiry contradicts Secretary Chertoff's promise 
and his obligation to provide Congress with the Department's 
transition plans and activities. In fact, at the fiscal year 
2009 DHS budget hearing on February 13, Secretary Chertoff told 
this committee, I think we owe it to you, when asked about the 
Department's transition plans and activities. Yet the 
committee's staff contacted the component offices at DHS to 
prepare for a series of hearings regarding the transition of 
the Department's plan beyond the 5 years. They were told that 
you and the Secretary had ordered them not to comply with the 
committee's request.
    Let me be clear again, the Department must not evade its 
responsibility to this committee, Congress or the American 
people. The Department must be accountable for its transition 
plans. It must be equally accountable for its other mishaps, 
whether we are talking about formaldehyde in the Katrina 
trailers or spy satellites. I am confident that you will keep 
this in mind as you detail the Department's transition plans in 
your testimony.
    I will close by saying once again that we owe the American 
people security, we owe them accountability, and, most 
importantly, we owe them freedom from fear. With that, I thank 
you for being here today and look forward to your testimony, 
Mr. Schneider.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. King for an opening 
statement.
    Mr. King. Thank you, Mr. Chairman.
    I look forward to the hearing. I want to thank Mr. 
Schneider for his service and for assuming a very tough job, 
and I believe doing a very outstanding job, and we certainly 
look forward to your testimony today.
    I know in a number of conversations I had with your 
predecessor Mr. Jackson the tremendous concern he had about the 
whole transition period and to ensure that that was done as 
seamlessly as possible and providing the greatest protection. 
There are so many events that could occur between November 4 
and January 20, and then, of course, in the first months of the 
next administration, that this is really a key moment which has 
to be addressed, and I look forward to your testimony on that.
    I also want to say I think this is the time to acknowledge 
all the work the Department has done. I mean, it is now 5 
years; the country has not been attacked in the last 6\1/2\ 
years. Yes, there have been growing pains, but all things 
considered, I believe the Department has done a very good job 
in coming forward, certainly in comparison to the Defense 
Department 50 years ago. I think that is important to keep in 
mind. But this is really a first major test as far as the 
transition period, so your testimony is going to be extremely 
important on that.
    But also, as far as your responsibility to the American 
people, I think the Congress also has a responsibility, and I 
wish we had made as much progress as the Department has. I wish 
we still didn't have 86 committees and subcommittees claiming 
jurisdiction over the Department of Homeland Security and 
impeding you from getting your job done. To me, if we want real 
oversight of the Department, it should be centralized in one or 
two committees, maybe parts of a third committee at most, but 
to have this spread out the way it is over the Congress to me 
is a failure--it is an abdication of our responsibility. So I 
think that before we criticize the Department so much, we 
should look at ourselves and say why haven't we done a better 
job so there can be real oversight and not have it spread so 
far and so thin that it becomes meaningless.
    Also, as far as responsibility, I believe as a committee, 
and I have said this to the Chairman, we have a responsibility 
to enact an authorization bill. The fact that we haven't; I 
mean, here we are demanding what the Department does and the 
Department comes forward, that is what they are supposed to be 
doing, and yet we so far have no plans even to enact an 
authorization bill, which is a failure of responsibility on our 
part.
    So I look forward to your testimony so you can show how you 
are complying with your responsibilities and your duties, and I 
look forward to your testimony.
    I yield back.
    Chairman Thompson. Other members on the committee are 
reminded that under the committee rules, opening statements may 
be submitted for the record.
    [The statements of Hons. Jackson Lee and Brown-Waite 
follow:]
           Prepared Statement of the Hon. Sheila Jackson Lee
                             April 23, 2008
    In the business of security, there is always work to be done. For 
those of us charged with doing all we can to protect the American 
public from those who wish to do us harm--the work never ends, and we 
can never rest. As such, we are here today to discuss not only what has 
been accomlpished but what is yet to be done, how we might improve the 
functionality, governance, and accountability of the Department of 
Homeland Security in the years to come.
    In the past week, we have held hearings in each subcommittee to 
examine the plans for transition for the programmatic offices within 
the Department of Homeland Security. This hearing will be the 
culmination of this inquiry; we need now to consider the peoples, 
policies, and programs of the Department of Homeland Security and their 
specific plans for transition.
    What we need to know today is that the Department has a 
comprehensive plan for transition on both a micro and a macro level. 
This committee has sent multiple letters of inquiry asking Secretary 
Chertoff and other high-level officials from the Department of Homeland 
Security to outline their plans for transition. Much to this 
committee's dismay, when Secretary Chertoff did respond to our entirely 
warranted inquiry, he stated the following: ``I think it is important 
to underscore the fact that over 200,000 of our Department's employees 
are located in the seven major operating Components. The change in 
administration will have little, if any, impact on their critical front 
line operations and a fairly negligible effect on senior management.'' 
Mr. Chairman, Members of this committee, that is not a sufficient 
answer. Stating that the transition will not affect the majority of 
employees does not address the fundamental question that we are seeking 
to have answered today: what are the Department of Homeland Security's 
specific plans at a micro and macro level for the impending transition?
    As the Chairwoman of the Subcommittee on Transportation Security 
and Infrastructure Protection, I was happy to hear from Assistant 
Secretary Hawley. As we recognized the significant milestone that is 
the Department of Homeland Security 5-year anniversary, my subcommittee 
reflected on the work that the TSA has done to secure our Nation's 
aviation and surface transportation systems, and what work has to be 
done.
    The TSA is responsible for the security of highways, railroads, 
buses, mass transit systems, ports and the 450 U.S. airports, and 
employs approximately 50,000 individuals who have the very important 
mission of keeping the traveling public safe from terrorist threats.
    There are many aspects to securing transportation. First, there 
must be an overarching plan and comprehensive strategy under which all 
programs and policies must flow. Those programs need to be administered 
efficiently in combination with developments in screening and detection 
technology to make sure that threats are discovered. We must have well 
thought out grant programs that quickly gets money to transit systems 
under an appropriate risk assessment so that continuing security 
investments can be made that are tailored to particular transit systems 
to provide the most comprehensive security network. An all-important 
component of security that I consider a paramount priority is the 
continuing training of frontline workers. They are our first line of 
defense against our enemies, and we owe it to them to provide them with 
the best training, supportive work environment, and opportunities for 
professional development.
    When this Congress passed into law the 9/11 bill, we directed the 
Department to make improvements in aviation cargo screening, expanded 
up the surface transportation security grants, defined criteria for the 
handling of security sensitive materials on railroads, and provided 
significant employee training programs and protections. It is vitally 
important that the Department continues to carryout the mandates 
created in the 9/11 bill. These provisions were created in a bi-
partisan matter, with significant input from the Department and 
industry stakeholders, to close security gaps and fulfill the 
recommendations of the 9/11 Commission.
    To be sure, the TSA has taken steps to secure the plane and the 
passenger but has still left the system vulnerable to attacks. In 
essence, I believe that our focus has disproportionately been on 
protecting aircraft from past attack scenarios--such as suicide 
hijackings and IEDs carried out by airline passengers--and has not 
given enough attention to other potential vulnerabilities.
    I am encouraged by the progress that has been made within the TSA, 
such as including refining the checkpoints, the advancements made in 
Behavior Recognition, and introducing technologies that improve 
screening. However, there remains cause for concern as well. By TSA's 
own covert testing, TSA screeners are still underperforming when it 
comes to detecting potential bombs and bomb parts, calling into 
question whether TSOs are getting the training they need to do the job 
that we need them to do and that they desire to do.
    We must also not lose sight of the need for a robust surface 
transportation security program. The intelligence tells us that 
transportation continues to be the most significant security threat 
facing us today. Aviation is still a premium target for terrorists, but 
as attacks around the world have shown us, rail and mass transit is 
also an extremely attractive target for those who want to cause mass 
casualties and panic. With 11.3 million people traveling by mass 
transit each weekday, we cannot afford to lose site of this 
vulnerability. That is why this hearing is so vitally important. The 
TSA is one of the most high profile components of the Department of 
Homeland Security, and based on known threats, the most important.
    Because of our collective efforts and vigilance, we have managed to 
avert a terrorist attack on our soil since the tragic events of 
September 11. However, even more important than celebrating our efforts 
is thinking critically, creatively and with foresight about the 
systemic steps we need to take to better secure our Nation's 
transportation systems and ensuring that we are committed and dedicated 
to the implementation of these steps. In the wake of the tragic events 
of September 11, 2001 and during a global war on terror, the Department 
of Homeland Security has an increasingly significant role to play.
    September 11, 2001, is a day that is indelibly etched in the psyche 
of every American and most of the world. Much like the unprovoked 
attack on Pearl Harbor on December 7, 1941, September 11, is a day that 
will live in infamy. In addition, as much as Pearl Harbor changed the 
course of world history by precipitating the global struggle between 
totalitarian fascism and representative democracy, the transformative 
impact of September 11 in the course of American and human history is 
indelible. September 11 was not only the beginning of the Global War on 
Terror, but moreover, it was the day of innocence lost for a new 
generation of Americans.
    Just like my fellow Americans, I remember September 11 as vividly 
as if it was yesterday. In my mind's eye, I can still remember being 
mesmerized by the television as the two airlines crashed into the Twin 
Towers of the World Trade Center, and I remember the sense of terror we 
experienced when we realized that this was no accident, that we had 
been attacked, and that the world as we know it had changed forever. 
The moment in which the Twin Towers collapsed and the nearly 3,000 
innocent Americans died haunts me until this day.
    At this moment, I decided that the protection of our homeland would 
be at the forefront of my legislative agenda. I knew that all of our 
collective efforts as Americans would all be in vain if we did not 
achieve our most important priority: the security of our Nation. 
Accordingly, I became then and continue to this day to be an active and 
engaged Member of the Committee on Homeland Security who considers our 
national security paramount.
    Our Nation's collective response to the tragedy of September 11 
exemplified what has been true of the American people since the 
inception of our Republic--in times of crisis, we come together and 
always perservere. Despite the depths of our anguish on the preceding 
day, on September 12, the American people demonstrated their compassion 
and solidarity for one another as we began the process of response, 
recovery, and rebuilding. We transcended our differences and came 
together to honor the sacrifices and losses sustained by the countless 
victims of September 11. Secretary Chertoff, let us honor their 
sacrifices by adequately funding not only DHS, but also the first 
responders who so bravely sacrificed their lives on 9/11 and who work 
tirelessly every day to ensure that the tragedy of 9/11 is never 
repeated. Let us learn from the lessons offered by our history so that 
we are not destined to repeat them.
    After the events of September 11, 2001, the American people became 
painfully aware of the differences between feeling secure and actually 
being secure. In addition, after Hurricanes Katrina and Rita, we 
learned that the Department's readiness for and response to natural 
disasters is woefully inadequate. We must take decisive steps to ensure 
that adequate funds are available and allocated so that the trust that 
the American people have placed in our hands is not compromised and 
that we take strategic steps to ensure their future safety from both 
terrorist attacks and natural disasters.
    The President has a fiscal year 2009 budget request of $50.5 
billion for the Department of Homeland Security, excluding emergency 
funding, a 7% increase of the enacted fiscal year 2008 level. Despite 
this increase in the overall budget request for the Department, I am 
concerned that the President's proposed budget nevertheless contains 
substantial cuts and eliminations of important programs that are vital 
to the security of our Nation, States, and communities.
    I do not feel that the administration's rhetoric has matched its 
actions. I am concerned about the commitment to the future and the 
unprecedented transition that will occur in less than a year. We are 
here today because we are looking for a specific plan and commitment to 
this transition and I look forward to today's testimony and ensuring 
the prosperity and progress of the Department of Homeland Security and 
consequently the safety of the American people.
                                 ______
                                 
            Prepared Statement of the Hon. Ginny Brown-Waite
                             April 23, 2008
    Thank you Chairman Thompson and Ranking Member King for holding 
this hearing today. Discussing the future of the Department of Homeland 
Security, and how DHS should prepare for the coming change of 
administration, is certainly worthwhile.
    However, I was deeply disappointed to hear that the Chairman does 
not intend for the committee to draft or pass an authorization bill 
this year. As my colleagues and I have repeatedly stated, crafting an 
authorization bill is a fundamental duty of this committee, and 
ignoring this responsibility is ill-advised. During these uncertain 
times, an authorization bill would serve as a valuable tool in 
prioritizing the Department's goals and activities.
    Regarding the future of DHS, I look forward to learning more about 
how the Department will preserve continuity as a new administration 
takes over next year. I think those of us on the committee would agree 
that limiting any disruptive Department reorganization or restructuring 
would prove extremely beneficial to the Department's mission.
    Defeating the numerous and changing security threats facing our 
nation in the post-9/11 world is a tall order. Securing the borders, 
keeping transportations systems safe, and protecting critical 
infrastructure are just a few of countless efforts that require a 
constant, focused investment of time and resources by the Department.
    While we continue working to improve the Department's performance, 
we should never forget the Department's success in keeping Americans 
safe, since DHS was created 5 years ago.
    I am sorry I am unable to attend the hearing today, due to a family 
medical emergency, but I will be sure to discuss the proceedings with 
my staff as soon as possible.
    Thank you.

    Chairman Thompson. Again, I welcome our witness today, the 
Honorable Paul Schneider, who was appointed on February 26, 
2008, to the position of Acting Deputy Secretary for the 
Department of Homeland Security. Prior to joining the 
Department in January of 2007, Under Secretary Schneider was a 
defense and aerospace consultant for 3\1/2\ years. Before that 
he was a civil servant for 38 years, including serving as 
senior acquisition executive for the National Security Agency.
    Mr. Schneider, I thank you for your service, and I look 
forward to your testimony.
    Without objection, the witness' full statement will be 
inserted in the record.
    Acting Deputy Secretary, I now recognize you to summarize 
your statement for 5 minutes.

 STATEMENT OF HON. PAUL A. SCHNEIDER, ACTING DEPUTY SECRETARY, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Schneider. Thank you, Mr. Chairman, Representative King 
and members of the committee. It is a pleasure to appear before 
you today to discuss how the Department of Homeland Security is 
preparing for the administration change in 2009.
    Our major objectives for the transition are to first have 
the right career people in place when the political leadership 
changes to ensure that the day-to-day operations of the 
Department are not impacted; second, to ensure our critical 
processes are well documented and mature; third, to ensure our 
major programs are properly structured; and fourth, but 
certainly not last in terms of importance, be able to respond 
to a national emergency during the transition.
    I would like to start by briefly addressing a misperception 
about the number and the role of political appointees at the 
Department and the impact of their departure at the end of this 
administration. There are approximately 200 political 
appointees in the Department. That is roughly \1/10\ of a 
percent of the entire Department. Of these 200, only 82 are in 
positions that are considered senior executives. These include 
the Presidential appointment with and without Senate 
confirmation, noncareer Senior Executive Service, senior-level 
and scientific and professional positions. Of these 82 
political appointees, 45 are at headquarters. These 45 
positions are primarily Under Secretaries, Assistant 
Secretaries, Deputies to these positions, Chiefs of Staff and 
others, such as the Chief Financial Officer, Chief Human 
Capital Officer and the Chief Information Officer. 
Approximately 50 percent of these 45 positions at headquarters 
are in the immediate Office of the Secretary and the Office of 
Policy. This distribution of appointees in these offices is 
expected, given their primary policymaking roles.
    I personally manage the status of political appointees and 
their career back-ups for the top 25 positions in the 
Department. In previous discussions with you, Mr. Chairman, and 
your staff, I have provided a copy of the chart that I used to 
manage each one of these individuals and their constant status 
to make sure that we, in fact, have the right back-up in place.
    It is important to note that approximately 204,000 of the 
Department's 208,000 employees are located in our seven 
operating components. The change in administration will have a 
minimal impact on their day-to-day operations or their ability 
to respond in the event of a national incident.
    I would like to summarize our posture in the seven major 
operating components. The United States Coast Guard and the 
Secret Service have no political appointees. At the 
Transportation Security Administration, the Deputy 
Administrator, Ms. Gale Rossides, a 30-plus-year civil servant, 
will assume the responsibilities of the Acting Administrator 
during the transition.
    FEMA, by law, has an Administrator and a Deputy 
Administrator who are Presidential appointees. A Regional 
Administrator, Ms. Nancy Ward, will serve as the Acting 
Administrator during the transition.
    Immigration and Custom Enforcement, the Deputy Assistant 
Secretary John Torres, a career civil servant, will serve as 
the Acting Assistant Secretary during the transition.
    At U.S. Citizenship and Immigration Services, the Acting 
Director will be the Director of Operations Mr. Michael Aytes, 
a 32-year career civil servant.
    At Customs and Border Protection, the Deputy Commissioner 
Jayson Ahern, a 31-year career civil servant, will serve as the 
Acting Commissioner. In addition, at CBP the Chief of the 
Border Patrol, the Director of Field Operations and the 
Assistant Commissioner for Air and Marine are all long-
standing, experienced career civil servants.
    The facts are pretty clear. The leadership of our 
operational components will be in good hands with experienced, 
proven leaders. The same applies for our headquarters. They 
lead today and will lead tomorrow.
    Overall, we are taking a multipronged approach to our 
transition planning to ensure operational continuity of 
Homeland Security responsibilities during the transition. On 
August 13, the President signed an Executive Order that 
specifies the order of succession for the position of the 
Secretary of the Department of Homeland Security. It now 
reflects our current organization. In October, we completed a 
component-level succession order and a delegation of authority 
for each component head position within the Department. There 
is at least one and sometimes two, and in some cases three, 
back-ups. We identified critical positions and the interim 
acting career executives for the departing appointees.
    There are several things we are doing. We are building the 
DHS employees' knowledge of the national security protocols and 
interfaces with other departments, as well as State, local and 
tribal governments. We are working with the Homeland Security 
Council to ensure that other departments with homeland security 
roles are integrated with our transition efforts. We are 
learning the best practices from State and local government, as 
well as the private sector, through the Homeland Security 
Advisory Council, NAPA, and the Council for Excellence in 
Government. We are holding training briefings and exercises to 
prepare our senior-level career personnel to be the 
decisionmakers and to ensure preparedness to act should a 
crisis, either natural or manmade, arise. We are fostering--
focusing on maturing our management processes that include the 
budget requirements and our major investments. We are providing 
an integrated operational planning and coordination effort 
across the Department.
    In summary, we have a comprehensive transition plan in 
place to ensure that we are prepared not only for the 2009 
administration change, but also an incident.
    Thank you for your support and this opportunity to be here 
today. I would be pleased to respond to any questions you may 
have.
    Chairman Thompson. Thank you very much, Mr. Schneider.
    [The statement of Mr. Schneider follows:]
                Prepared Statement of Paul A. Schneider
                             April 23, 2008
    Thank you Mr. Chairman, Representative King and members of the 
committee. It is a pleasure to appear before you today to discuss how 
the Department of Homeland Security (DHS) is preparing for the 
administration change in 2009.
    I appreciate the on-going discussion that DHS and the committee 
have had on DHS's transition efforts and look forward to continuing the 
dialog. The Department began to prepare for the administration change 
over a year ago. Today, you will hear about our efforts to plan for the 
change in political leadership and the progress we are making. We take 
our duty to prepare the Department very seriously.
    Our major objectives for the transition are to:
    1. Have the right career people in place when the political 
        leadership changes to ensure day-to-day operations of the 
        Department are not impacted.
    2. Ensure our critical processes are well documented and mature.
    3. Ensure our major programs are properly structured.
    4. Be able to respond to a national emergency during the 
        transition.
    I would like to start by briefly addressing a misperception about 
the number and role of political appointees at DHS and the impact of 
their departure at the end of this administration.
    There are approximately 200 political appointees in the Department. 
That is one-tenth of a percent of the entire Department. Of these 200, 
only 82 are in positions that are considered senior executives. These 
include Presidential Appointment with Senate Confirmation, Presidential 
Appointment, Non-career Senior Executive Service, Senior Level and 
Scientific and Professional positions. Of these 82 political positions, 
45 are at headquarters. These 45 positions are primarily Under 
Secretaries, Assistant Secretaries, Deputies to these positions, Chiefs 
of Staff, and others, such as Chief Financial Officer, Chief Human 
Capital Officer and Chief Information Officer positions. Approximately 
50 percent of these 45 positions at headquarters are in the immediate 
Office of the Secretary and the Office of Policy. This distribution of 
appointees in these offices is to be expected given their primary 
policymaking roles. While the other 50 percent of these political 
appointee executive positions are interspersed throughout DHS 
headquarters, the majority of the headquarters offices have senior 
career individuals as the No. 2 official.
    In addition, one of the key political appointee executive 
positions, the Under Secretary for Management (USM), by law is 
authorized to stay in office to help ensure a smooth transition until 
there is a senate confirmed political appointee for this position.
    It is important to note that approximately 204,000 of our 
Department's 208,000 employees are located in our seven major operating 
components. The change in administration will have a minimal impact on 
their day-to-day operations or their ability to respond in the event of 
a national incident. The following is a summary of the transition 
posture for our seven major operating components.
  <bullet> The United States Coast Guard is a military organization and 
        has no political appointees. Over the past 2 years we have 
        greatly strengthened it with experienced civilian leaders 
        primarily in acquisition, to respond to the increased 
        challenges in this area. We have been steadily increasing the 
        professionalism, capability and competency of this acquisition 
        corps.
  <bullet> The United States Secret service has no political 
        appointees.
  <bullet> Transportation Security Administration is headed by a 
        Presidential appointee requiring Senate confirmation. The 
        Deputy Administrator, Gale Rossides, a 30-plus-year civil 
        servant will assume the responsibilities of the acting 
        Administrator during the transition.
  <bullet> Federal Emergency Management Agency (FEMA) by law has an 
        Administrator and Deputy Administrator who are Presidential 
        appointees requiring Senate confirmation. Our plan is for the 
        Regional Administrator, Nancy Ward, to serve as the acting 
        Administrator during the transition.
  <bullet> Immigration and Custom Enforcement is headed by a 
        Presidential appointee requiring Senate confirmation. The 
        Deputy Assistant Secretary, John Torres, a career civil servant 
        will serve as the acting Assistant Secretary during the 
        transition. In addition, the Detention and Removal Office, 
        Federal Protective Service and Investigations Offices are lead 
        by career employees.
  <bullet> Federal Law Enforcement Training Center leadership are all 
        career civil servants.
  <bullet> Domestic Nuclear Detection Office is headed by a 
        Presidential appointee requiring Senate confirmation. The 
        Deputy Director and the senior leadership positions are filled 
        by career civil servants.
  <bullet> U.S. Citizenship and Immigration Services (USCIS) is headed 
        by a Presidential appointee requiring Senate confirmation. The 
        acting Director will be the Director of Operations, Michael 
        Aytes, a 32-year career civil servant.
  <bullet> Customs and Border Protection is headed by a Presidential 
        appointee requiring Senate confirmation. The Deputy 
        Commissioner, Jayson Ahern, a 31-year career civil servant will 
        serve as the acting Commissioner. In addition, the Chief of the 
        Border Patrol, the Director of Field Operations, and the 
        Assistant Commissioner for Air and Marine, are all long-
        standing, experienced career civil servants.
    In discussing transition, it is important to note that the 
Department underwent a major organizational transition that started in 
2005 when there was a change in Secretaries, and Deputy Secretaries 
that was followed with the replacement of the majority of the top 
political leadership. The Department's operations continued unabated 
primarily due to the strength, knowledge and experience of our senior 
career employees.
    This is not to say our work is done. To the contrary, we recognize 
that as a new Department with the critical mission of securing the 
homeland in a post-9/11 world, we must ensure our people are prepared 
and the incoming leadership is prepared to respond to any kind of 
national incident. We have already begun initiatives that enable us to 
plan and execute the transition effort well.
    We are taking a multi-pronged approach to our transition planning 
to ensure operational continuity of homeland security responsibilities 
during the Presidential Administration Transition. These areas of focus 
and related activities are as follows:
    1. Order of Succession.--On August 13, 2007, the President signed 
        an Executive Order that specifies the order of succession for 
        the position of Secretary of the Department of Homeland 
        Security. The previous Order of Succession for DHS had not been 
        revised since the Department was established in 2003. The 
        Executive Order now reflects our current organization. In 
        October 2007, DHS completed a component-level succession order 
        and delegation of authority for each component head position 
        within the Department. I have submitted the Department's order 
        of succession as part of my testimony.
    2. DHS Succession Planning.--We are identifying and planning 
        succession for critical homeland security positions within 
        components to provide continuity at the time of transition. For 
        departing senior level political appointees we have identified 
        interim acting career executives. In addition, Public Law 110-
        28 required and appropriated funds for the Office of the Under 
        Secretary for Management to commission an independent study 
        with the National Academy of Public Administration (NAPA) to 
        compare the Department of Homeland Security senior career and 
        political staffing levels and senior career training programs 
        with those of similarly structured cabinet-level agencies. NAPA 
        will deliver this report in May, 2008. This report should give 
        us great insights into how we compare with other agencies and 
        identify areas of strength or needed improvement.
    3. Cross-government Collaboration.--The Department engaged the 
        Council for Excellence in Government (CEG) to help ensure our 
        senior career employees, incoming appointees and leaders of 
        other agencies critical to homeland security are prepared to 
        respond should a national incident occur. CEG is facilitating 
        our efforts on inter-agency collaboration. This inter-agency 
        collaboration effort centers on structured, deliberate 
        processes where DHS will engage key groups and individuals. In 
        concert with FEMA and other parts of DHS, CEG will utilize the 
        National Response Framework and deliver multiple table top 
        exercises during the time of the Presidential election 
        campaign, inauguration, and subsequent appointments of Senate-
        confirmed positions. With these exercises, participants will 
        not only practice their roles but also build relationships and 
        camaraderie with other key decisionmakers in a variety of 
        emergency scenarios. This effort will strengthen DHS employees' 
        knowledge of national security protocols and interfaces with 
        other departments as well as State, local, and tribal 
        governments to ensure we are prepared should a crisis arise. We 
        are also working closely with the Homeland Security Council at 
        the White House to ensure other departments with homeland 
        security roles are integrated with our transition efforts.
    4. Best Practices.--We are learning about other approaches to 
        administration transition from Federal, State and local 
        governments as well as the private sector by leveraging the 
        expertise of the Homeland Security Advisory Council (HSAC). In 
        January 2008, the HSAC Administration Transition Task Force 
        (HSAC-ATTF) delivered a report that identifies transition best 
        practices. The recommendations in this report will help the 
        Department develop transition guidance to address the 
        operational challenges during leadership change. Such 
        operational challenges can include ensuring proper succession 
        of career personnel to serve in an acting capacity for 
        departing appointees, organizing table top exercises for 
        incoming appointees, creating a cadre of individuals to focus 
        on transition and ensuring proper out-processing of departing 
        employees.
    We have already implemented many of the HSAC-ATTF report 
        recommendations. For example, we created the Deputy Under 
        Secretary for Management career position to ensure operational 
        continuity during transition for a key element of the DHS 
        management structure. We have also identified senior-level 
        career personnel within each component to serve in an acting 
        capacity once the appointees depart. We also implemented the 
        recommendation to identify a cadre of individuals to serve as 
        Senior Transition Officers within their components to help lead 
        transition efforts. We have taken it a step further and in 
        keeping with our desire to train future leaders of DHS, we have 
        identified career employees at the General Schedule-14 and -15 
        levels, many of whom have graduated from our DHS Fellows and 
        other DHS sponsored graduate-level educational programs, to 
        serve as Deputies to the Senior Transition Officers.
    We are also holding training conferences as well as briefings and 
        exercises to prepare these senior level career personnel to be 
        the decisionmakers should they be called upon to manage an 
        incident in the absence of senior leadership. In February 2008, 
        DHS hosted a 2\1/2\-day conference that brought together the 
        Department's top leadership from all components including 
        field-based employees. The attendees consisted of career and 
        non-career employees who participated in a FEMA exercise and 
        received briefings on the Department's major initiatives. These 
        briefings focused on execution of policies in the field. In 
        May, the Department will host another 3-day event for senior 
        career employees from all of the components at the Federal Law 
        Enforcement Training Center in Georgia. This training will 
        engage senior career employees in a series of briefing 
        scenarios and FEMA exercises to reinforce integrated 
        operational preparedness and execution throughout the 
        Department. Additionally, beginning this summer and continuing 
        through inauguration, we will be holding more incident response 
        table top exercises that will ensure senior career and incoming 
        appointees have the ability to put into practice the guidance 
        of the National Response Framework, the National Infrastructure 
        Protection Plan and National Incident Management System.
    5. Administrative Transition Guidance.--The Senior and Deputy 
        Transition Officers that have been identified are working 
        closely with the USM's core transition team to evaluate 
        internal processes and develop briefing materials. It is 
        particularly important to evaluate our internal processes to 
        ensure effectiveness during the anticipated surge of incoming 
        and exiting staff. The internal processes initiative will 
        involve reviewing Directives, strengthening records management 
        and ensuring for incoming staff, that both new appointees and 
        career employees are equipped with the tools they need and the 
        information and relationships required to be effective in their 
        jobs. We will also be developing briefing materials to convey 
        to career executives and incoming appointees the requisite 
        information and knowledge to maintain operations. For exiting 
        staff we will ensure proper briefings.
    6. Processes.--In addition to focusing on internal administrative 
        processes of what we call the ``nuts and bolts'', we are also 
        focusing on management processes that include the budget, our 
        major investments and the role of the Operations, Planning and 
        Coordination Component. In planning the Fiscal Year 2009 budget 
        we instituted a recommendation by the Homeland Security 
        Advisory Council--Cultural Task Force (HSAC-CTF) and commenced 
        a Department-wide process of engaging the Components in their 
        strategies, investments and financial objectives. For Fiscal 
        Year 2010 we took it a step further and involved a heavy 
        concentration of career civil servants in the budget process to 
        ensure it continues seamlessly during transition. To continue 
        with the HSAC-CTF recommendation of providing a cohesive, 
        integrated and operationally efficient means of protecting the 
        homeland, we are enhancing our operational planning and 
        coordination efforts across the Department.
    7. Programs.--The past 2 years we have spent considerable effort to 
        make sure our major programs are properly structured and 
        resourced to be successful. In August 2007, we formalized our 
        oversight efforts and support for acquisition programs by 
        establishing the Acquisition Program Management Division (APMD) 
        within the Office of the Chief Procurement Officer. To date, 
        APMD has performed Quick Look assessments of 37 Level 1 
        programs and has overseen Deep Dive reviews of the SBInet and 
        Advance Spectroscopic Portal programs. APMD has provided advice 
        and guidance to a number of programs, particularly in the area 
        of cost-benefit analysis. We are ensuring that the requirements 
        are clear, cost estimates are valid, technology risks are 
        properly assessed, schedules are realistic, contract vehicles 
        are proper, and the efforts are well managed.
    We have restructured the Deepwater and Secure Border Initiative 
        efforts. The Transportation Worker Identification Credential 
        Program, a tamper-resistant credential that contains biometric 
        information about the holder which renders the card useless to 
        anyone other than the rightful owner was restructured and is 
        being successfully executed. Each transportation facility will 
        be able to verify the identity of a worker and help prevent 
        unauthorized individuals from accessing secure areas. We have 
        also implemented the first phase of the Western Hemisphere 
        Travel Initiative, a 9/11 Commission recommendation, which 
        requires all travelers, U.S. citizens and foreign nationals 
        alike, to present a passport or other secure document to denote 
        identity and citizenship when entering the United States. 
        Another 9/11 Commission recommendation to improve our system 
        for issuing identification documents that we are implementing 
        is REAL ID. This initiative will improve the integrity and 
        security of State-issued driver's licenses and identification 
        cards, which in turn will help fight terrorism and reduce 
        fraud. Within USCIS we are about to initiate a major 
        transformation that will enhance national security, improve 
        customer service, and increase efficiency. DHS's Office of 
        Intelligence and Analysis is developing a transformation plan 
        to integrate the Department's intelligence functions and 
        capabilities in accordance with the 9/11 Act.
    Our goal is ensure the programs we are implementing are on track 
for the next administration.
    In summary, we have a comprehensive transition plan in place to 
ensure that we are prepared for not only the 2009 administration change 
but also an incident. In addition, the response we have received from 
our briefings on our transition efforts to this committee, the U.S. 
Government Accountability Office, and the Office of Management and 
Budget, has been extremely positive where our plan has been touted as a 
best practice for other departments to follow.
    Thank you for support and this opportunity to be here today. I 
would be pleased to respond to any questions that you may have.
  Annex A.--Order for Delegation of Authority by the Secretary of the 
                    Department of Homeland Security
 (pursuant to executive order executive order 13442 (august 13, 2007))
    1. Deputy Secretary for Homeland Security
    2. Under Secretary for National Protection and Programs
    3. Under Secretary for Management
    4. Assistant Secretary of Homeland Security (Policy)
    5. Under Secretary for Science and Technology
    6. General Counsel
    7. Assistant Secretary of Homeland Security (Transportation 
        Security Administration)
    8. Administrator of the Federal Emergency Management Agency
    9. Commissioner of U.S. Customs and Border Protection
    10. Assistant Secretary of Homeland Security (U.S. Immigration and 
        Customs Enforcement)
    11. Director of U.S. Citizenship and Immigration Services
    12. Chief Financial Officer
    13. Regional Administrator, Region V, Federal Emergency Management 
        Agency
    14. Regional Administrator, Region VI, Federal Emergency Management 
        Agency
    15. Regional Administrator, Region VII, Federal Emergency 
        Management Agency
    16. Regional Administrator, Region IX, Federal Emergency Management 
        Agency
    17. Regional Administrator, Region I, Federal Emergency Management 
        Agency

         ANNEX B.--DHS SUCCESSION ORDER AND ORDER FOR DELEGATION
------------------------------------------------------------------------
                                                                Career
                     Component/Position                         Status
------------------------------------------------------------------------
U.S. Coast Guard:
    Commandant..............................................          S
    Vice Commandant *.......................................           C
    Chief of Staff..........................................           C
    Commander, Pacific Area.................................           C
    Commander, Atlantic Area................................           C
Federal Emergency Management Agency:
    Administrator...........................................          S
    Deputy Administrator and Chief Operating Officer *......          S
    Deputy Administrator, National Preparedness.............          S
    Associate Deputy Administrator..........................           C
    Director, Office of Policy & Planning Analysis..........          N
    Region V Administrator..................................          N
    Region VI Administrator.................................          N
    Region VII Administrator................................          N
    Region IX Administrator.................................           C
    Region I Administrator..................................          N
U.S. Secret Service:
    Director................................................           C
    Deputy Director.........................................           C
    Assistant Director, Administration......................           C
    Assistant Director, Protective Operations...............           C
    Assistant Director, Investigations......................           C
    Assistant Director, Protective Research.................           C
    Assistant Director, Human Resources and Training........           C
    Assistant Director, Inspection..........................           C
    Assistant Director, Government and Public Affairs.......           C
U.S. Immigration and Customs Enforcement:
    Assistant Secretary.....................................          S
    Deputy Assistant Secretary, Operations *................           C
    Director, Office of Investigations......................           C
    Director, Office of Detention & Removal Operations......           C
    Director, Office of the Principal Legal Advisor.........          N
    Deputy Assistant Secretary, Management..................           C
U.S. Citizenship and Immigration Services:
    Director................................................          S
    Deputy Director *.......................................          N
    Associate Director, Domestic Operations.................           C
    Associate Director, National Security & Records                    C
     Verification...........................................
    Chief Financial Officer.................................           C
    Director, New York District.............................           C
U.S. Customs and Border Protection:
    Commissioner............................................          S
    Deputy Commissioner *...................................           C
    Chief, Border Patrol....................................           C
    Assistant Commissioner, Field Operations................           C
    Director, Field Operations, New York....................           C
    Sector Chief, El Paso...................................           C
    Director, Field Operations, Houston.....................           C
    Sector Chief, Tucson....................................           C
    Sector Chief, San Diego.................................           C
    Director, Field Operations, Miami.......................           C
Transportation Security Administration:
    Assistant Secretary/Administrator.......................          S
    Deputy Administrator *..................................           C
    Assistant Administrator, Office of Transportation and             L
     Sector Management......................................
    Assistant Administrator, Office of Security Operations..           C
    Assistant Administrator, Office of Law Enforcement/                C
     Federal Air Marshal Service............................
    Federal Security Director, Los Angeles International               C
     Airport................................................
    Federal Security Director, Orlando International Airport           C
Management:
    Under Secretary.........................................          S
    Deputy Under Secretary *................................           C
    Chief Financial Officer.................................          S
    Chief Information Officer...............................          P
    Chief Human Capital Officer.............................          P
    Chief Procurement Officer...............................           C
    Chief Administrative Officer............................           C
Science and Technology:
    Under Secretary.........................................          S
    Deputy Under Secretary *................................           C
    Director, Office of Transition..........................           C
    Director, Interagency Programs..........................          L
    Director, Office of Innovation..........................           C
    Division Head, Office of Explosives.....................           C
    Division Head, Office of Borders & Maritime Security....           C
National Protection and Programs Directorate:
    Under Secretary.........................................          S
    Deputy Under Secretary *................................          P
    Assistant Secretary, Infrastructure Protection..........          P
    Assistant Secretary, Cybersecurity & Communications.....          N
    Assistant Secretary, Intergovernmental Affairs..........          N
    Deputy Assistant Secretary, Infrastructure Protection...          N
    Director, U.S. Visitor & Immigrant Status Indicator                C
     Technology (US-VISIT)..................................
Office of Policy:
    Assistant Secretary.....................................          S
    Deputy Assistant Secretary *............................          N
    Assistant Secretary, Policy Development.................          N
    Assistant Secretary, International Relations............          L
    Director, Screening Coordination Office.................          L
Office of Intelligence and Analysis:
    Under Secretary, Chief Intelligence Officer.............          S
    Deputy Under Secretary *................................           C
    Deputy Under Secretary, Operations......................          N
    Assistant Deputy Under Secretary, Intelligence..........           C
    Assistant Deputy Under Secretary, Mission Integration...           C
    Assistant Deputy Under Secretary, External                         C
     Communications.........................................
Office of Operations Coordination:
    Director................................................          L
    Deputy Director.........................................           C
    Director, National Operations Center....................           C
    Chief of Staff..........................................           C
    Director, Incident Management & Interagency Planning....           C
Office of Health Affairs:
    Assistant Secretary, Chief Medical Officer..............          S
    Principal Deputy Assistant Secretary, Deputy Chief                 C
     Medical Officer *......................................
    Chief of Staff..........................................           C
    Associate Chief Medical Officer, Medical Readiness......          T
    Associate Chief Medical Officer, Component Services.....           C
    Associate Chief Medical Officer, Weapons of Mass                   C
     Destruction & Biodefense...............................
Federal Law Enforcement Training Center:
    Director................................................           C
    Deputy Director.........................................           C
    Assistant Director, Training............................           C
    Assistant Director, Field Training......................           C
    Assistant Director, Training Innovation & Management....           C
    Assistant Director, Administration......................           C
    Assistant Director, Chief Financial Officer.............           C
    Assistant Director, Chief Information Officer...........           C
    Senior Associate Director, Washington Operations........           C
Domestic Nuclear Detection Office:
    Director................................................          P
    Deputy Director.........................................           C
    Assistant Director, Mission Management..................           C
    Assistant Director, National Technical Nuclear Forensics           C
     Center.................................................
    Assistant Director, Transformational & Applied Research.           C
    Assistant Director, Product Acquisition.................           C
Office of the General Counsel:
    General Counsel.........................................          S
    Principal Deputy General Counsel *......................          N
    Deputy General Counsel..................................           C
    Associate General Counsel, General Law..................          N
    Chief Counsel, TSA......................................           C
    Director of Field Legal Operations, Principal Legal                C
     Advisor, ICE...........................................
Office of Legislative Affairs:
    Assistant Secretary.....................................          N
    Deputy Assistant Secretary, Operations..................           C
    Deputy Assistant Secretary, Senate Liaison..............          N
    Deputy Assistant Secretary, House Liaison...............          N
    Director, Intelligence & Analysis/Operations............          N
    Director, National Protection & Programs Directorate....           C
Office of Public Affairs:
    Assistant Secretary.....................................          N
    Deputy Assistant Secretary..............................          N
    Director, Strategic Communications......................          N
    Director, Internal Communications.......................           C
Office of Inspector General:
    Inspector General.......................................          S
    Deputy Inspector General *..............................           C
    Counsel to the Inspector General........................           C
    Assistant Inspector General, Audits.....................           C
    Assistant Inspector General, Investigations.............           C
    Assistant Inspector General, Inspections................           C
Citizenship and Immigration Services Ombudsman:
    Ombudsman...............................................          N
    Executive Officer.......................................           C
    Chief, Programs, Policy, Strategy & Research............           C
    Chief, Intake Evaluations & Problem Resolution..........           C
Chief Privacy Officer:
    Chief Privacy Officer...................................          N
    Deputy Chief Privacy Officer, Privacy...................           C
    Deputy Chief FOIA Officer, Freedom of Information Act...           C
Civil Rights and Civil Liberties:
    Civil Rights and Civil Liberties Officer................          P
    Deputy Officer, Equal Employment Opportunity Programs...           C
    Deputy Officer, Programs and Compliance.................           C
    Executive Officer.......................................           C
Office of Counternarcotics Enforcement:
    Director................................................          S
    Chief of Staff *........................................           C
    Principal Asst Director.................................           C
------------------------------------------------------------------------
 AAAAAS = Presidential Appointee with Senate Confirmation.
 AAAAAP = Presidential Appointee.
 AAAAAN = Non-Career SES or Schedule C.
 AAAAAC = Career.
 AAAAAL = Limited term appointee.
 AAAAAT = Scientific Professional.
 AAAAA* = First Assistant, pursuant to the Federal Vacancy Reform Act.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Thompson. I will recognize myself for 5 minutes 
for the first set of questions.
    I listened with great interest what you see as the 
transition plan. Is there any reason why we did not get a copy 
in writing of what you just outlined to us when we requested in 
writing?
    Mr. Schneider. Mr. Chairman, I believe we gave you the 
succession order. We gave you a significant amount of 
documents. The documents that we did not give you, and I think 
we were pretty clear, at least I think I was pretty clear in 
the letter I sent you, was preliminary information about 
priorities that you asked us to identify that we felt we needed 
to first develop and then provide to the incoming 
administration. But in terms of succession order, in terms of 
key positions, in terms of a tremendous amount of documentation 
that you requested, we provided that. In addition, we have had 
numerous conversations with your staff and other staffs 
regarding the details of our individual transition plans.
    Chairman Thompson. I understand the meetings, but I think 
what we are trying to get to is what do you have as the written 
principles for transition for the Department? If you have them, 
I will make the request again that you make those documents 
available to the committee. I have heard your testimony here 
today that there is a comprehensive transition plan. If that 
document exists, based on what you just indicated in your 
testimony, then the committee members, I am assuming in its 
totality, would like to see it.
    Mr. Schneider. Mr. Chairman, the law requires me as the 
Under Secretary, and I am the Under Secretary for Management, 
to submit to the Congress a transition plan, I believe, by 
October 2008. We will comply with that requirement. Our 
intention is to have that before that. But that is what we are 
required to do. I believe in my letter I clearly----
    Chairman Thompson. My point is if the committee in its 
function requests certain information that you are in the 
process of preparing and would like to see it, that is the 
spirit in which the request is made.
    Mr. Schneider. I understand, sir.
    Chairman Thompson. So you will not provide the information?
    Mr. Schneider. I will go back and look at the specific 
information that you asked for. I will look at what we have 
already provided. But again, I am required by the law to submit 
the formal transition plan in October 2008, and that will be a 
clear documentation of how we disposed of all the 
recommendations from the Homeland Security Advisory Council, 
the NAPA study and the Council of Excellence in Government.
    I might point out that we are already implementing many of 
the recommendations that came out of the Homeland Security 
Advisory Council transition study report, and based on our 
initial discussions with NAPA, we have already learned about 
some of the recommendations that they have suggested, and we 
will do that. This will all be documented in the transition 
plan that we are required to submit. I will look to see if 
there is other documentation that we can provide.
    The specific things that I did not provide, and I indicated 
in my letter, were those things that we honestly felt were 
those that ought to be between the administrative branch of--
excuse me, the executive branch of the current administration 
with the executive branch of the future administration. It 
probably didn't come out how I meant it, but the fact of the 
matter is issues and things like that that are in existence at 
that time. A lot happens, as I have learned in this job, in 30 
days or 60 days and 90 days, and to start identifying those 
issues now that would be relevant and that a new administration 
would need to tackle in my view is somewhat premature.
    Chairman Thompson. Well, I guess your definition of 
executive branch material is probably different from some of 
us. Give me an example of what you think a Member of Congress 
on this committee would not be afforded the opportunity to see.
    Mr. Schneider. I don't think, quite frankly, you 
specifically wanted copies of draft briefing material that I 
would use at a leadership conference of the top 200 people in 
the Department at a leadership off-site that we had as part of 
our transition planning effort, and that was specifically 
called out in your letter. You wanted to see copies of all the 
individual briefing material. Frankly, I thought that----
    Chairman Thompson. So you do remember my letter?
    Mr. Schneider. Yes, sir. I personally wrote the answer to 
your letter.
    Chairman Thompson. But what I am trying to get to you, Mr. 
Schneider, is even though you responded, there were issues in 
the letter that we take exception with, and I am clear on that.
    But let me give you an example. We asked for contact names 
for the individuals responsible for the transition process 
within each component. We asked for that. We asked the budget 
for the transition team. Those----
    Mr. Schneider. We don't have a budget for the transition 
team.
    Chairman Thompson. Well, then--excuse me, then all you have 
to do is provide that back to us. As a courtesy for the 
committee we asked for the information. If you don't have it, 
if you don't have a budget, if you don't think a budget is 
necessary, then all you have to do is provide the information. 
But to ignore or not respond is not the manner that we expect 
you as a member of the Department to do.
    Mr. Schneider. Mr. Chairman, with all due respect, and I 
quote from my February 12 letter to you, budget--your question, 
to the extent possible we have provided transition planning 
information in response to your questions; specifically budget 
information for the transition process. My answer: There is no 
specific budget allocated for transition, however--it goes into 
talk about public law, blah, blah, blah--identified $900,000 
for a specific study. I did exactly what you just asked me to 
do. I provided that information hard copy, and I wrote the 
answer myself. So I have responded to your request as best as I 
could.
    Chairman Thompson. Well, then there are some differences.
    I yield to the Ranking Member for his questions.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Schneider, as I understand your testimony, this is a 
work in progress. Your target date is October. You are 
providing us with the information you have right now; as you 
said, the world can change in 30 days, 60 days or 90 days. You 
know, that is the reality. Also, I would think this dialogue 
would be a lot more meaningful if you only had one committee to 
respond to, not 86 different committees and subcommittees, 
rather than have to respond to every request that everyone is 
making based on suppositions as to what might happen later this 
spring, early this summer or next fall.
    If I could go to another topic, which maybe technically is 
not part of the transition, but in my mind I think is important 
as we go from one administration to the other, and that is if 
you could clarify the issue about the fence along the border. 
There is a news report yesterday and today about Project 28, 
which basically says that the Department is backing away from 
that project. Then I think the Department put out a statement 
clarifying they are not. I just want to ask you, what is the 
status of the fence going to be when the next administration 
takes over?
    Mr. Schneider. The fence--well, let me answer it in two 
parts, a couple of things. I literally just saw that AP----
    Mr. King. I am sorry--okay.
    Mr. Schneider [continuing]. As I walked into the room here, 
and it is partially correct and partially incorrect. I would 
refer back, quite frankly, to the Secretary's I think it was 
February 13 testimony in front of this committee where he 
explained in a fair amount of detail what SBInet was or is; how 
P-28 relates to it; how it is part of, just part of, a solution 
that includes vehicle defense, pedestrian defense, high 
technology, low technology, increased Border Patrol agents and 
the like, and it is kind of a compilation, and as well as 
natural boundaries.
    So I think in rereading his testimony before this hearing, 
I think his testimony in that particular hearing goes into 
quite a bit of detail about P-28, SBInet, the fence and Border 
Patrol agents. So that is what the status was then. The only 
thing that has changed, frankly, is that we accepted P-28, and 
he indicated in his testimony that he was likely to do that in 
the next couple of days, and he did.
    With regard to the--and he also specifies in his testimony, 
I think, the number of mileage--excuse me, the number of miles 
of fence that will be in place by the end of 2008. I think it 
is roughly 670 miles, of which 370 is pedestrian fence, and I 
think the other 300 is vehicle fence.
    So, I mean, those are the numbers. That is the status. I 
can get you the exact number of miles of the fence that has 
actually been laid down.
    With regard to this article, some of the stuff is correct, 
some of the stuff is not. The problem we have is that the way 
these things are interpreted ends up twisting the story around 
a little bit, and for what objective, frankly, just astounds 
me. But the fact of the matter is there is things in this 
article that is just factually incorrect.
    Mr. King. Whatever clarifications you could send to the 
committee, I would appreciate that.
    Mr. Schneider. Yeah. This thing is, I would say 
specifically, a Kelly Good--although the fence continues to 
operate, it hasn't come close to meeting the Border Patrol's 
goals.
    I think in terms of the staff briefings that have been 
provided to the committee staff, in terms of the Secretary's 
testimony, he explained explicitly about what P-28 
demonstrated, what it didn't; the fact it is not a full-up 
operational capability; what we were doing in terms of coming 
up with upgraded software, upgraded hardware. We would be doing 
integration testing in a software integration lab, marry that 
software with the hardware, and ultimately go back and field an 
upgraded capability.
    So that is why this thing is inaccurate, because it doesn't 
really reflect what the Chief of the Border Patrol's view is, 
and it doesn't reflect the various discussions that staff has 
had. Now----
    Mr. King. Mr. Secretary, before my time expires, can I ask 
one further question, which is actually separate from that, if 
the Chairman will indulge me? I know that the Intelligence 
Communities, once candidates are chosen by the respective 
parties, begin briefings of the staffs of those candidates. 
Does Homeland Security plan to do anything like that that is 
almost like a prelude to transition as to telling candidates 
what ongoing threats there might be or what transition plans 
there could be so they could, in effect, realize what is 
happening during the campaign?
    Mr. Schneider. I am aware about the intelligence aspects 
from my previous life in primarily defense and the like. The 
Homeland Security Advisory Council, and I suspect NAPA, will 
recommend that the administration reach out to both parties at 
different points in time. Having served as the Acting Deputy 
Secretary now for 4\1/2\ months, that is a good recommendation, 
and the reason is, as I have learned, you don't really 
understand what--in the case of my job, which involves 
basically the operations of the entire Department, you don't 
really get an appreciation for it until you are really in the 
job and how much you really think you know about the total 
operations of the Department. There is absolutely no question 
that that would be of value. From a practical standpoint, I 
have been talking to folks within this current administration 
about how do we do that practicably, what would be the right 
point in time. There is absolutely no question that that would 
be a benefit.
    This is what we are doing. We are preparing training 
materials and the like for the incoming administration. We will 
be doing exercises with--we have already--starting with 
exercising our people, those people that are going to be in the 
leadership positions. We are going to reach out to the other 
Cabinet departments, those who interface with us in case of a 
manmade or natural disaster, to have their leadership involved 
with our transition leadership so that everybody knows each 
other, everybody knows how we operate together in these 
particular times of crises, and we would have that available 
for an incoming administration to take advantage of or, if it 
was determined that they wanted it and appropriate for both 
particular candidates and their staffs, to make use of that 
opportunity.
    I personally and others in this administration think that 
that would be extremely valuable. The reason is this: Frankly, 
before I came to Homeland Security, I didn't have a clue in 
any--I didn't have a good understanding of what this Department 
was. You can read the Web sites, you can do this, and you can 
study. But the fact of the matter is until you are here, until 
you realize how you deal with HHS, how you deal with HUD, how 
you deal with Energy, how you deal with Defense, how you deal 
with Interior, especially in terms of crisis, until you are 
here, you really don't understand it. That is one of the 
reasons why our effort with the Council on Excellence in 
Government is to identify all these interfaces, identify how we 
work with these other departments. So it would basically be an 
educational device, if you will, so that the incoming 
administration would have a great appreciation for the 
sensitivities, the interfaces, et cetera, which, frankly, would 
help them in selecting people for some of the key leadership 
positions that are involved in Homeland Security.
    Mr. King. Thank you.
    Thank you, Mr. Chairman, for the extra time.
    Chairman Thompson. The Chair now recognizes other Members 
for questions that they may wish to ask the witnesses. In 
accordance with the committee rules, I will recognize Members 
who were present at the start of the hearing based on seniority 
on the committee, alternating between Majority and Minority. 
Those Members coming in later will be recognized in the order 
of their arrival.
    The Chair now recognizes for 5 minutes the gentlewoman from 
California, Ms. Sanchez.
    Mr. Sanchez. Thank you, Mr. Chairman.
    Mr. Schneider, the Government Performance and Results Act 
requires every department to draft a 5-year strategic plan 
identifying departmental goals and strategy and to update it 
every 3 years. The Department of Homeland Security last updated 
theirs in 2004, and therefore the next update should have been 
in 2007, but it is not done yet. The Department is only one of 
four Federal agencies that hasn't gotten their up-to-date 
strategic plan. A few weeks ago Department Under Secretary for 
Management Elaine Duke told us that the Department's update is 
still being reviewed by the OMB, and, according to her, OMB 
withheld approval because DHS did not include adequate 
performance measures in its plan.
    Do you know if you have gotten around to doing quantifiable 
measurements for that plan, for the updated plan now?
    Mr. Schneider. They are currently in the process of being 
more fully developed. I might point out that at the same time, 
just like the Chairman referred to my hearing in front of, I 
think, this committee on the GAO 5-year report, I also had to 
testify in front of the Senate committee with Mr. Walker, and 
what we worked out was, as you know, we had serious 
disagreements about the GAO 5-year report. But that was a good 
discussion. It ultimately led to a series of discussions 
between us and GAO where we agreed with the Senator to figure 
out a way so we can identify for future reference what measures 
of performance should be to judge us for future, whether it be 
6 years, et cetera.
    So what we did was we worked out really hard for several 
months with the GAO, and we had a set of metrics that we 
thought were pretty good. So then in submitting up through OMB, 
they had some disagreements with us. So what we are trying to 
do, frankly, is reconcile our identified--that we negotiated 
with GAO in terms of performance metrics with what OMB wants us 
to see, agree on a set that will be happy to GAO, because I 
never want to go through or my successor will never want to go 
through, say, the GAO 6-year report that I had to go through, 
and yet at the same time satisfy OMB's requirements.
    So I forgot the date that Ms. Duke committed to provide the 
plan. I think it was in the fall or early fall or something 
like that, and we are on track to make that.
    Mr. Sanchez. So are you saying that the strategic plan will 
be published before the Presidential election?
    Mr. Schneider. It is the early fall. I would have to ask 
her about the precise date.
    Mr. Sanchez. She is nodding yes behind you.
    Mr. Schneider. She is nodding yes? Okay.
    Mr. Sanchez. How can the Department plan for the next--
well, okay. So we are going to have it in time then for us to 
take a look at it and make sure that we have them in place as 
we go through transition. That was really my question.
    I have another question with respect to the US-VISIT 
system. The statutory requirement for entry and exit system to 
the United States, as you recall, has been on the books now for 
over 10 years, and in the beginning the administration made a 
priority, the only priority, to do a biometric system for entry 
into the United States, and now it is working on the biometric 
exit system. So what steps is the Department taking to ensure 
that the US-VISIT system won't be losing any ground during this 
transition time? Because I think this whole issue of 
overstaying visas is incredibly important as we try to figure 
out how we get people to go back to their home countries and 
not overstay them. So what is in the works with respect to US-
VISIT so that we make sure that we keep gaining ground rather 
than losing ground?
    Mr. Schneider. Okay. This is really a big priority with the 
Secretary. We have published a rule, or it has either been 
published--I have lost track of--since 2 days ago--in the 
Federal Register that establishes the requirements for exit for 
the exact reasons, Congresswoman, that you just cited.
    The way this thing works is we publish the rule for 60 
days. Comments come in, and then they are adjudicated. Then 
basically the rule gets published. So we requested as part of 
the publishing the rule specific feedback on certain aspects of 
the rule regarding implementation.
    I need to tell you, and I saw some press clips just before 
I came in here, some of the airline industries are really not 
happy. They are really concerned about the cost of this thing. 
As Secretary Chertoff testified, I believe, in his testimony in 
February on this committee, we take our responsibilities in the 
law very seriously, we go through the rulemaking process, but 
there are many that do not want to pay the cost of keeping our 
homeland secure, and this is one of them.
    So we are committed to get this thing out. We work very 
closely with OMB on this thing. One of the things you have to 
do as part of publishing a rule is to go through various cost-
effectiveness analysis, look at different alternatives. We had 
a look at a whole host of alternatives to cost them out. Our 
job is not to tell the airlines how to comply, not to tell them 
what they have to do, but rather let them figure it out within 
the most effective and cost-effective way within their method 
or flow process within the individual airports.
    So this thing is moving, it has not stopped, and the 
Secretary is absolutely committed to getting this thing done.
    Mr. Sanchez. To just rephrase it then, the Secretary and 
the Department are continuing to want to have all of that 
check-out process being done by the airlines before they get to 
the TSA portion of the airport?
    Mr. Schneider. We don't specify where they do it. This is 
where they have--there are lots of ways to do it. You could do 
it up front in the airport, you could do it in between, you 
could do it when they get to the counter. This is where the--
you could have kiosks. There are lots of ways to do this. We 
don't think our responsibility, though is it appropriate, for 
us to tell the airlines how to do this, okay? Different 
airlines may want different solutions, and it is all based on 
their individual business model and passage of throughput model 
within each of the airports. I would expect there would be 
different solutions for different airlines.
    Mr. Sanchez. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes Mr. Rogers for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Schneider, thank you for being here and your service to 
our country.
    I want to start off following up on something that Ranking 
Member King addressed in his questions, and that is the fact 
that this Congress has yet to deal with the consolidation of 
jurisdiction over DHS as recommended by the 9/11 Commission. 
Just in the 110th Congress, the current Congress, how many 
times have you had to testify, or do you know?
    Mr. Schneider. As the Under Secretary--I was, before I 
became the Acting Deputy Secretary, I was Under Secretary for 
10 months, or until I basically assumed this position. I don't 
know, it might have been nine times maybe. Small Business, two 
hearings; one of the field hearings when we had proposed that 
somebody else testify, a more knowledgeable person. I, under 
threat of subpoena, had to testify in front of E&C, Energy and 
Commerce, and the reason was they just wanted--you know, it 
wasn't a question of having the subject matter expert. I am not 
the subject matter expert on radiation, portal monitors, et 
cetera, spectroscopic analysis. So what happens is you--so I 
think it was about nine times. This is the first time--I don't 
want to say it is one of the benefits of being the Acting 
Deputy Secretary. This is the first time I have had to testify 
as the Acting Deputy Secretary.
    Mr. Rogers. Does this phenomenon occur with all of your 
folks in management?
    Mr. Schneider. It is terrible.
    Mr. Rogers. How does it affect your ability to run the 
Department?
    Mr. Schneider. It really does affect you because, first of 
all, especially when you deal with committees that are just 
interested in a--I will call it a slice or a piece of you or a 
piece of the Department, and the reason being is they don't 
have a broad oversight, they don't understand fully the trade 
space that a department has to make in terms of allocation of 
resources like you do or your Senate counterpart or the 
appropriators. So what happens is there is a laser-beam focus 
on that particular issue as if that is the only thing the 
Department is concerned about. Then it gets even worse when you 
see that some of these other committees try to introduce 
legislation which, frankly, just focuses on that.
    As we speak, we are fighting a big issue today with the T&I 
Committee, if you will, that has come up with a proposed 
amendment that will basically totally affect the way the Coast 
Guard operates, command/control, allocation of officers, on and 
on and on and on. It was like 300 pages.
    Mr. Rogers. What I am hearing is, bottom line, it is a 
drain on your resources, an anchor around your neck, and it is 
Congress' fault that we haven't addressed it?
    Mr. Schneider. That is not for me to say it is Congress' 
fault.
    Mr. Rogers. Well, that is what I say, and it is a fact. We 
as Congress have let the Department down by not taking this 
issue on.
    I want to ask you about another matter, ICE. In recent 
years we have increased CBP by 35 percent, and we are getting 
close to a level that ostensibly will be adequate for CBP. I 
think that is arguable. But over the same period of time, we 
have made a zero increase in ICE officers. That seems 
incongruent to me. Why has that happened, and do you see any 
effort to try to remedy the inadequacy of ICE officers as we 
move forward in trying to deal with illegals in this country?
    Mr. Schneider. Yes. I think it gets back to what was our 
immediate priority and how did we make those resource 
decisions. No. 1 priority was basically secure the border. That 
is why we needed to go to build, start to build a big build-up 
of Border Patrol agents initially at the southwest border, and 
now, as you know from our 2009 budget submit, we are focusing 
our efforts now on expanding and increasing our capability both 
with people, technology, et cetera, on the northern border.
    Likewise with ICE, we had some very serious issues with 
regard to the detention facilities, number of beds. So what we 
did was we put dollars into increasing the number of beds, 
increasing the--I will call the worthiness or the acceptability 
of a lot of these facilities, and so we have done that.
    We know that to go and find the illegals that are in this 
country and do not belong here, we have to start increasing the 
number of ICE agents, and as we look downstream, that is how we 
start rolling that thing in.
    Mr. Rogers. So you do plan to increase it?
    Mr. Schneider. Our plan is to increase it, yes.
    Mr. Rogers. Over what period of time do you expect to see 
this happen?
    Mr. Schneider. I will have to get you those numbers.
    Mr. Rogers. I would like to see those.
    Mr. Schneider. I have a better handle on beds. I track beds 
only because that basically--I don't want to say influences our 
ability to be able to detain these people satisfactorily so 
that we can basically remove them from the country.
    I will get you our projections.
    Mr. Rogers. My time has expired. I hope we have another 
round of questions. Thank you.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentlelady from California for 
5 minutes Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I think it is important to have our 
records show where we are on this question of transition.
    I, sitting here, read your letter to Secretary Chertoff and 
his response, and I think they are both useful parts of this 
committee's hearing record.
    I do think there has been progress at the Department, and I 
want to thank the Department for progress. However, I also 
think there is a long way to go, and I think there are some 
outstanding issues, particularly with respect to the National 
Applications Office, concerning the use of military satellites 
over the United States.
    Let me just make several comments. That is what I would 
like to do with my time. First, I agree with the Ranking Member 
and the more recent comments that Congress should do more to 
reform itself. This is a glaring omission. The 9/11 Commission 
was right that an unfinished piece of business is congressional 
reform. I also feel, and you know I have said this to you, Mr. 
Chairman, that part of that reform should result in more 
jurisdiction for this committee.
    This is the committee that is called the Homeland Security 
Committee. I don't know what people miss about this. We have 
expertise on a bipartisan basis, and we should have 
jurisdiction to match that expertise because this is urgent 
business. I think if we got more jurisdiction in this 
committee, some of this problem would simplify. So that is my 
comment on that.
    On the Department, let me just make several comments from 
my vantage point as Chair of the intelligence subcommittee. I 
think this work should be going on now. I also think the next 
administration will need to continue this work. Three areas: 
One, information sharing. I know the Deputy Secretary has heard 
me talk about this, and Under Secretary Allen has heard me talk 
about this more, but that is still a work in progress. The 
point is to get the information that is accurate, actionable 
and timely to people who need it--to people who need it, 
period, and that is not happening fast enough or often enough.
    We don't have to go into it now, but I think the Department 
has had to be dragged kicking and screaming into the business 
of involving State and local representatives in its activities. 
Progress has been made, but this is unfinished work.
    I was just in Minneapolis visiting the fusion center there, 
and there is no question that grant guidance needs work, and 
that more effort has to be made to include our State and local 
first preventers in helping to design intelligence products and 
making certain that they are fully shared.
    Second, R&D. I represent a part of California where there 
is incredibly good technology developed by the private sector--
Ms. Sanchez knows this, too--for all kinds of activities the 
Department is engaged in. I don't want to just show my local 
products, although they are great. But the Science and 
Technology Directorate is still a work in progress. It was 
supposed to be the front door for technology. It is beginning 
to function as the front door for technology. But if the 
Department doesn't fully leverage the products that the private 
sector has developed, the Department will never get there in 
terms of having sensors and other--you know, the most advanced 
screening mechanisms for the TWIC cards and other things that 
are critically important for it to carry out its work.
    The third area seems to have been substantially overlooked. 
I know that the Secretary has been traveling lately. I think 
that is a good thing. But it relates to our international 
relationships. It seems to me that we should be working closer 
with our allies, and we should be learning the best practices 
that our allies are using to do many of the functions that are 
necessary for them and are necessary for us. I think, again, 
the welcome mat hasn't been as open as it should be. I think 
this is work the next administration will have to carry on.
    But let me just close by suggesting that information 
sharing, R&D and international relationships are all areas that 
need to be addressed more carefully, and I would hope that you 
and the Secretary would spend some time on these things before 
your terms end.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Dent, for 5 minutes.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Schneider, a quick question I wanted to ask you. You 
submitted that--the order for delegation authority for the 
Department. Could you explain how the Department arrived at 
this order of succession? For example, I saw that given the 
mission of FEMA, one would think FEMA would be higher on that 
succession order than, say, the Under Secretary for Science and 
Technology, but that wasn't the case. I guess I want to 
understand the rationale how you came up with that process.
    Mr. Schneider. Actually, that was a realization that if in 
the unfortunate circumstance that they needed to execute that 
succession order, that by and large there would probably be a 
national incident of major proportions that would require 
emergency response.
    Chairman Thompson. Can you speak up just a little bit?
    Mr. Schneider. Our thought process was that if there was a 
situation that would require going down that list where either 
the Secretary, the Deputy Secretary or the two Under 
Secretaries were basically not available to execute the 
responsibilities of the Secretary, that it would probably be a 
situation where we would have an extensive recovery-type effort 
under way in response to either a natural or a manmade 
disaster. It was our view that the head of FEMA is so critical 
in terms of executing the Department's responsibilities in that 
particular area, that that was a judgment call we made that 
that individual, the head of FEMA, ought to be focused on that 
as his or her primary mission.
    That was our thought process, as opposed to I will call it 
the continuity of government actions. Having been in this job 
now for 4\1/2\ months and watching how FEMA operates in cases 
of wildfires, in cases of ice storms, in cases of flooding and 
tornadoes and the like, I think that was the right decision. We 
want the head of FEMA managing FEMA, and we have other capable 
people in terms of a couple of Under Secretaries and Assistant 
Secretaries who could fill in as the Acting Secretary.
    Mr. Dent. So I guess, stated another way, you see that the 
head of FEMA takes on a critical role during such an event, but 
should not be placed at the top of the organization or close to 
the top, because under your program you have established him as 
the--the Administrator as No. 8 in succession as opposed to, 
say, S&T at No. 5. So you are stating that it is a critical 
position, and he must be focused on those activities, I guess?
    Mr. Schneider. It really is. Congressman, my appreciation 
has just--for what FEMA does in this position where--you know, 
FEMA is one of our seven operational components. Our 
operational chain of command is basically those operational 
component heads work directly for the Secretary and, in his 
absence, me. So in any one of these particular situations, the 
chain of command or communications is the Secretary or myself 
directly to the head of FEMA. I can tell you we want those 
people, we want the head of FEMA doing what he is doing or in 
the future doing what they are doing because it is absolutely 
critical. They exercise tremendous judgment in terms of how 
forward-leaning in the case of natural events, how forward-
leaning they need to be. It is the dealings with the Governors 
and the local people, and that is what our view was, that that 
was so critical that we ought to let them do that.
    Mr. Dent. Then I guess my next question then just deals 
with the issue of transition, which of the components that you 
feel face the greatest challenge as the Department prepares for 
transition, and specifically what particular challenges do you 
see for FEMA as it moves to this transition period?
    Mr. Schneider. I think the biggest challenge for FEMA is, 
frankly, the fact that both the principal--the Administrator 
and Deputy Administrator are political appointees. So we don't 
have that one, two, you know, political career back-up. That is 
by law, you know.
    So what you have is you have the top two people leaving at 
the same time. We don't have that in CBP, we don't have it in 
ICE, we don't have it in TSA. There are several other 
organizations within our Department that I didn't mention; like 
FLETC doesn't change, our Director of Operations doesn't 
change, I mean their careers.
    So here we have one of our major operating components, the 
top two people leave. Not to say that the Regional 
Administrator Ms. Ward is not fully capable; the fact of the 
matter is she does not deal with Governors across the United 
States every day. She does not deal--or if we picked another 
Regional Administrator. So just by the nature of structure, 
okay, that is the one that is somewhat of an anomaly relative 
to the rest of the Department. So the rest of the Department I 
am personally very comfortable with.
    Mr. Dent. I see my time is up. I yield back.
    Chairman Thompson. Thank you.
    I would now recognize the gentleman from North Carolina for 
5 minutes. Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman, and Mr. Secretary, 
thank you for being here.
    Let me join my colleague Ms. Harman on the issue regarding 
technology, having the great privilege of representing the 
State that has a lot of Technology and Research Triangle area. 
I think the Science and Tech Directorate is a critical piece, 
and I think that needs, obviously, more attention as we move 
forward to make sure we mind those best practices out there in 
the private sector we can use.
    But let me move back, if I may, to the transition and 
leadership, because I think it is a critical piece, as it 
always is, and you have just touched on it, because I think now 
more than ever it is critical to have that strong leadership. 
Really for a fully prepared and trained workforce in the 
Department, you just alluded to one of the real challenges. I 
think we have got to ensure that the transitional continuity in 
the administrational--in the programs and the key 
decisionmakers are in place. I think that is a critical piece. 
In light of the Department's vital mission during the upcoming 
Presidential transition, you have touched on this a bit. I 
think it is critical that sound policies and procedures are in 
place to really ensure that those professionals stay in place. 
So my question is this: What plans and programs are in place to 
ensure continuity in program administration and key decision-
making areas?
    Here is why I ask that question: Because if something 
should happen and there is that dead period, even when you 
start having--and we will get to the major election process 
pretty quick, and--what training and exercises are planned or 
under way to test our new roles and responsibilities if an 
event were to occur during this period of transition?
    Mr. Schneider. Okay.
    Mr. Etheridge. Which is, I think, the most critical period 
because that is the gray area that a lot of folks don't really 
think about.
    I hope you have been thinking about it.
    Mr. Schneider. Yes, sir, I have. I spend quite a bit of 
time thinking about it.
    Let's do this in pieces, okay? Up through and including up 
to January 20, we will--we plan and we have already started to 
run a series of exercises, both within our department, with all 
those career civil servants that will be assuming these 
positions of leadership as the acting head of an operational 
component----
    Mr. Etheridge. Sort of a handoff.
    Mr. Schneider. A handoff. I mean this is basically an 
exercise. We do many of these in terms of desktop exercises.
    We will continue to do these. We will change the venue, 
whether it be a pandemic flu, whether it be a chlorine leak, 
whether it be some other--one of the other scenarios that we 
have to respond to.
    Our plan is to work through the Homeland Security Council 
to get the other departments in government to get their planned 
acting leadership during the transition to participate with us 
so that the people know one another. That may sound kind of 
minor, but I can tell you I spend a tremendous amount of my 
time each week dealing with my counterparts at the other 
departments in terms of interagency coordination; and it makes 
a big difference if you know who the other person is at the end 
of the line before you have a crisis.
    Mr. Etheridge. I hate to interrupt you because time is 
running out, but my question also interfaces, as we have got 
these people who obviously are going to be leaving. Before new 
people come in, you are going to be handing some of that off to 
career people?
    Mr. Schneider. Yes, sir.
    Mr. Etheridge. I hope those career people are side by side 
with the political folks.
    Mr. Schneider. Yes, sir.
    Mr. Etheridge. I hope you would touch on that before you 
finish your----
    Mr. Schneider. Yes. In my testimony, and I captured some of 
it in my opening statement, the people that are going to be 
running the seven--or five of the seven operating components 
have, on the average, 30-32 years' experience in government. I 
deal and the Secretary deals with them interchangeably with 
their principals. If I can't get the head of TSA, I deal with 
the deputy. If I can't get the head of CBP, I deal with Jay 
Ahern.
    They are interchangeable; and the reason is, their 
responsibilities are so broad. So I am not are worried about 
that.
    What we have been doing is, we have been bringing those 
people and their subordinates one or two levels beneath them 
into the decision-making process. So when I ran a leadership 
event for 2\1/2\ days a couple of months ago, it was not just 
the No. 2 people, it was the No. 3 and the No. 4, so that 
everybody understood our current priorities, where we were 
headed.
    They understood what our current programs were, where we 
were headed. We shared lessons learned for how we--we are 
basically a law enforcement organization; how we operate--my 
term on the deck plate, whether it be in Miami, whether it be 
in Key West, whether it be in Seattle or San Diego, we share 
those best practices. Because that organization, that day-to-
day operation will go on regardless of whether or not you have 
a political appointee at the head of the operating component or 
an acting career executive.
    So as part of our fiscal year 2010 budget process we have 
done it differently as we start preparing our budget. We have 
basically brought in--for the most part, 70 percent of the 
people participating in the budget are the second level 
leadership and the third and fourth level leadership of the 
Department so that everybody understands how this budget 
process works. Because one of the first things a new 
administration will take a look at is, do they agree with the 
priorities, the allocation of resources, et cetera; and it is a 
mad rush to basically determine what the new administration's 
priorities are.
    I would put our Department, in terms of preparedness, in 
terms of the knowledge of the people that are in the 
Department, ahead of any other Department in this government in 
terms of being able to respond when a new administration takes 
place.
    Mr. Etheridge. Thank you, Mr. Chairman. That is somewhat 
reassuring. I appreciate that very much. I think that is 
critical--that, plus all the grant work that takes place in 
this Department is important.
    Thank you and I yield back.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Tennessee for 5 
minutes, Mr. Davis.
    Mr. Davis of Tennessee. Thank you very much. Thank you for 
being here. I appreciate your willingness to testify today.
    Chairman Thompson. Can you check and see if your mic is on, 
Mr. Davis?
    Mr. Davis of Tennessee. I appreciate your being here. Thank 
you so much.
    Could you tell me how important it is to the Department for 
the Congress to pass the authorization bill for the work that 
you do?
    Mr. Schneider. I think an authorization bill is very 
important. The reason I think it is very important is because 
what it does is, it takes a total view of the Department in 
terms of priorities, where resources ought to be, et cetera.
    Within the Congress, I think that brings together, as part 
of the legislative process, all the issues at one time that 
basically coalesce, if you will, all the different entities 
that might be interested in a slice of what we do here, a slice 
of what we do there in terms of the broad perspective of what 
is important to this Department in the view of the Congress. So 
I think it is important.
    I come from a world where you always have, you know, 
Defense primarily, where you have an authorization bill. It 
kind of guides the priorities of the process. I think that is 
the way it was intended in terms of the legislative process. I 
think it is sound and good government. So I am very supportive 
of the value of an authorization bill for the Department of 
Homeland Security.
    Mr. Davis of Tennessee. Thank you for that answer.
    I am going to try to focus a little more tightly now and 
talk about Border Patrol. When do you anticipate SBInet to be 
fully deployed? SBInet?
    Mr. Schneider. Well, the SBInet is--and I will refer back 
to Secretary Chertoff's testimony of February 13 in front of 
this committee, where he gave a pretty comprehensive answer 
about what SBInet entails and what--which is a mixture of 
different types of low technology, high technology, unmanned 
ground sensors, cameras, et cetera.
    So he gave where we would be by the end of 2008 in terms 
of, I think it was, the Arizona-New Mexico border with some 
further--we have a rollout planned, and I forget the exact 
dates, for 2010-2011, where we would go to Yuma.
    So it gets deployed in various stages, and the mix of what 
is in it is different, depending upon the needs of the Border 
Patrol. It could be because of the geography, it could be 
because of natural boundaries; it could be we use perhaps 
mobile ground systems because we have 10 miles flat terrain in 
either direction. So as we start moving across the border, when 
we take into account the vehicle fence and pedestrian fence, 
the mix is going to be different.
    So there are some very clear milestones that we have 
established for 2009-2010, and I would be glad to get that to 
you.
    Mr. Davis of Tennessee. That would be good.
    I understand that Secretary Chertoff, using authority 
granted by Congress, has waived certain laws to expedite 
construction of critical Border Patrol fencing; and he did that 
under auspices of law. Can you talk, generally, when you think 
some of these things are starting to be seen by the American 
people? Where will they begin acquisition plans for land, 
survey sites, some of those things that can reassure the 
American people that we are moving forward to protect our 
security and our homeland?
    Mr. Schneider. In the Secretary's waiver that he approved, 
we identified for him every specific tract that requires the 
waiver; and for various reasons, we have two waivers, one in 
general for each of the individual tracts, and then we have the 
one stand-alone waiver for Hidalgo County, where we are doing a 
cooperative effort with the county on a joint fence-levy 
construction project that frankly makes sense, do the job once 
and save money. So the specific tracts are identified, if you 
will.
    I tracked the mileage in terms of where we are in terms of 
fence miles for a week on our way to the total of 670 by the 
end of 2008; 370 are pedestrian, 300 are vehicle. In another 30 
days or so, I will start tracking, if you will, where we are 
with each of these.
    Some of these things are being contested, you know, in 
court. The law that gave the Secretary the waiver authority was 
very prescriptive about assigning to a specific court the 
responsibility to adjudicate these cases under certain 
circumstances, et cetera. So I am going to be looking at how 
many cases, how many tracts, what is the mileage in each tract, 
where we are relative to the acquisition, when do we actually 
start digging and preparing the site. So I am probably about 30 
days away from getting into personally managing the details of 
every one of these tracts.
    But the reason we did this was so that the Department could 
comply with the law. You know, there are two separate laws that 
we have to comply with. One that gave us--you know, specifies 
the fence, and the other gives us the waiver. There are two 
separate portions. So we did this because--and we did this it 
at the time we did it because there is no way we would have met 
the law requirement for the 670 miles.
    Mr. Davis of Tennessee. My time has expired. I hope you 
will share that information, the miles proceeding, with Members 
of Congress. With that, I yield back.
    Mr. Schneider. Yes, sir.
    Chairman Thompson. Thank you.
    I will now recognize the gentleman from Rhode Island for 5 
minutes, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your testimony today. As we 
are looking further and further at issues in transition--is 
that better?
    Mr. Schneider. Yes, sir.
    Mr. Langevin. Secretary, thank you for being here today. As 
the committee is looking further and further at the issue of 
transition, I wanted to look at the issue of burrowing.
    This committee obviously has warned the Department several 
times about utilizing the practice of burrowing, which would 
basically allow the filling of critical vacancies with 
political appointees. It is the common practice, as you know, 
of OPM to issue a customary warning to agencies to ensure that 
political pressure doesn't enter into the personnel decision-
making process during a Presidential transition. However, it 
appears as though the Department is already transitioning 
former political appointees into career positions.
    A couple of examples: Brad Buswell was the former chief of 
staff to the Science and Technology Directorate. The committee 
was told that last week he was named deputy under secretary to 
S&T, which as you know is a career position. Another example is 
Sue Armstrong, acting chief of staff of the Office of 
Infrastructure Protection, who will replace Dennis Diesel as 
the deputy director of the Infrastructure and Security 
Compliance Division.
    How are you going to prevent burrowing if the Department is 
already engaged in the practice that they had been warned 
against?
    Mr. Schneider. Okay. First off, we advertise. We don't just 
unilaterally reassign somebody from a political position to a 
career position. What we do is, we advertise the position. 
People apply.
    In the case of Mr. Buswell--and I will get the date for 
you--I think it was back in October we decided to advertise the 
job. We advertised the job. We have got--I think there might 
have been about a dozen applicants, including him.
    It went through an evaluation process by a board that was--
typically, we have three people. In many cases, they come 
from--they are not in the--people that are on the board are not 
in the directorate of the position.
    Mr. Langevin. Who appoints this board? Is this the 
Secretary's appointment?
    Mr. Schneider. No, it is recommended by the selecting 
official that is approved, I believe, by the chief human 
capital officer; and if he or she has some issues with it, they 
would bring it to me.
    Mr. Langevin. Are you saying both these individuals went 
through that process, the positions were posted?
    Mr. Schneider. First of all, I am not familiar with the 
other individual. I am familiar with Mr. Buswell, because the 
process that we used would ultimately lead to a recommendation 
for selection. That would come to an executive resources 
council that I chair that is made up of a cross-section of the 
political and the career leadership of the Department.
    In that particular case, that board reviewed the 
backgrounds of the top three applicants and concurred with that 
recommendation. That recommendation and package was sent to the 
Office of Personnel Management. The Office of Personnel 
Management did a detailed scrub of that for two accounts: First 
of all, make sure the individual, as a routine, whether or not 
the individual was qualified, et cetera, et cetera; but also, 
because he was a political appointee, they do an extra scrub of 
that.
    They basically concurred with that process and his 
qualifications. Then once they did that, that package was sent 
to a qualifications review board that is picked by OPM, that 
meets, I think, on a monthly basis to basically consider the 
qualifications for any--any new career SES across government.
    The qualifications review board concurred with that. It 
came back to us, I think it was last Friday. So we are in the 
process of effecting that particular move. I think his last 
date as the chief of staff is April 27. Then on Monday, I 
believe, he would assume responsibilities of deputy under 
secretary.
    I want to emphasize, these jobs are advertised, people 
compete. I am aware of only one other political appointee--I 
will check this other one out--I am only aware of one other 
political appointee since 2005 at the executive level--the 
executive level that was a political, competed for a job and 
was selected. Those are the only two cases I am aware of.
    I will check this other one out.
    Mr. Langevin. You will get back to the committee in 
writing?
    Mr. Schneider. Yes, sir.
    Mr. Langevin. Thank you.
    I have one other question, unless the Chair wants you to 
get back to me in writing. Project BioShield has employed 
varying levels of success. While the Department of Homeland 
Security has completed some of the necessary material threat 
determinations, HHS has yet to produce anything but small 
quantities of only a select few countermeasures.
    This program is too important to fail, and yet I don't see 
any clear solution to transform this program into a success. I 
want to know what steps the Department of Homeland Security has 
taken to Project BioShield's successful transition to the next 
administration. Has your Department worked with the Department 
of Health and Human Services on recommendations for the 
successful transfer of this program?
    I know my time has expired so, Mr. Chairman, I don't know 
if you want him to get back to me on the record or if he can 
answer the question.
    Chairman Thompson. The gentleman can answer the question.
    Mr. Schneider. Okay. Let me just----
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Schneider. First of all, we work closely with HHS. Dr. 
Runge, whom you know, our assistant secretary for health 
affairs, works very closely with his counterparts. I work very 
closely with Secretary Tevi Troy in HHS. Dr. Runge briefs the 
Secretary, I think every 6 weeks, on where we are with 
BioShield.
    We know what we do. We have to field this thing. I think in 
our 2009 budget we ask for money to go--what is it--the third 
generation or next generation, which is very important because 
of its fidelity in terms of detection. That is about as much as 
I can tell you off the top of my head. I can give you a much 
more detailed thing.
    I will tell you, there are a couple of things that Jeff 
worries about, that the BioShield, BioWatch and NVIC, which is 
our--how we basically use for the bio area, how we merge that 
with intelligence to give us a composite picture worldwide.
    So our resources that we have allocated to this whole area 
have not been as much as we wanted, but this also is a new 
office. We have had problems, frankly, building it, getting the 
people; that was partially driven by the lack of resources.
    We have increased our resource allocation in this area. I 
think as we move into the future years, based on updates and 
threats like that, I think a new administration will continue 
to evaluate whether or not that is a proper allocation of 
recurring resources.
    Mr. Langevin. All right. Just in closing, I want to say, 
Mr. Secretary, I am not at all impressed with the progress 
BioShield is making, and I think this is--one of the real and 
growing threats that we face is from potential bio-attack. We 
have got to step up our efforts to make this program a success. 
It is too important to fail.
    With that, thank you, Mr. Chairman; I thank you for your 
indulgence, and I yield back.
    Chairman Thompson. Thank you very much.
    We now recognize Ms. Miller for 5 minutes.
    Mrs. Miller. Thank you, Mr. Chairman.
    I appreciate the gentleman, your service to our Nation, 
your attendance here today. I am trying to face this 
microphone, but it is sort of awkward here because, then, I 
can't look at you. In fact, Mr. Pascrell and I are drawing a 
new design for this table. If that could be done, it would be 
great.
    Chairman Thompson. Duly noted.
    Mrs. Miller. I would like to address my questions, if I 
could, Mr. Secretary, to the consolidation of the Department. I 
have an interest in that. I had your deputy come in, who was 
briefing me, sort of giving me the wiring diagram, the overall 
of the agency and some of the various things she thought could 
happen.
    I have a big interest in the consolidation because I was a 
former secretary of state before I got this job, and I had a 
number of different appendages with that job. We had the 
Department of Elections in one area of our capital city, I had 
400 employees out in an annex, and another, you know, 5 miles 
away; and it was just the craziest situation, and we were able 
to consolidate.
    I was reading through my notes here. I see even Secretary 
Chertoff, when you did this employee evaluation or survey, says 
many in the Department feel that the lack of a centralized 
headquarters location could be hindering employee morale, as 
well as, obviously, cost efficiency and effectiveness, et 
cetera.
    Can you talk a little bit about how your consolidations are 
coming to have a single facility at St. Elizabeth's there, and 
how that will assist the agency in the long term?
    Mr. Schneider. Thank you for the question.
    This is actually a very sensitive subject with me. Our 
facilities are disgraceful. Probably the biggest 
disappointment, I would say, of the 2 years that I will have 
spent in this Department was the failure to get St. E's--the 
move to St. E's moving.
    We are digging that place up every day. Sixty-two-year-old 
heating plants falling apart, no hot water, sewage lines 
breaking, digging up the roads every week, roof leaks. We tried 
to modernize our cafeteria for the couple thousand people, 
found asbestos. It is disgraceful.
    We have an operations center, national operations center, 
ambient--can't run several crisis action teams at the same 
time--ambient temperature. I don't know why anybody would ever 
want to work there.
    We are in competition for intelligence analysts with CIA, 
DIA, NGA, NSA. If you have a choice of coming to work in our 
dump versus working at CIA or DIA or NGA, where are you going 
to work? The answer is you are not going to work at our place 
unless you are a glutton for punishment in working conditions 
that are disgraceful.
    The problem we have is that, you know, as part of the end 
game on the omnibus bill, it was not--the initial increment, or 
the big increment, was knocked out.
    We jointly fund this with GSA; they fund about two-thirds, 
we fund about one-third. We have a partnership, and it really 
works very well together. I spend a lot of time with 
Administrator Doan, and we are their largest customer actually.
    But the fact of the matter is, we structured our move to 
St. E's not just about packing a bunch of people up and moving 
them, but about totally restructuring the business model of the 
Department. We made a very conscious decision about what would 
be at St. E's, which of the 14,000 people, what segment of the 
leadership, what we could basically do in terms of a back-room 
consolidation, just like a Fortune 500 company would do, where 
we could save money, where we could capitalize on integrating 
operational centers and the like. The fact of the matter is, we 
have a whole list of expiring leases that we deliberately had 
put off renewing because we wanted to sequence the end of the 
lease with the move of the organization.
    So this setback not only affects our business model and our 
ability to operate efficiently, but in the end game it is going 
to cost us a lot of money that, frankly, we didn't plan on.
    So, yeah, I think the place is terrible, to be honest with 
you. I think it puts us at a big disadvantage. I think--we do 
the best we can, and I think it is only because of--it is a 
testament to the people that want to do this kind of profession 
for a living, that they tolerate this condition.
    Mrs. Miller. Thank you. I am out of time. But I appreciate 
the answer to the question. I certainly look forward to helping 
however we can.
    I am sure this committee will do whatever we can to assist 
you in your business plan, because it does serve the 
taxpayers--not only your Department, but the taxpayers as 
well--and the security of our Nation to have an efficient 
operation there. Consolidation, I think, is a priority.
    Mr. Schneider. Thank you very much.
    Chairman Thompson. We now recognize the gentlelady from New 
York for 5 minutes, Ms. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. I would like to follow 
up, Mr. Schneider, on those comments, and particularly on a 
question posed by the chairman.
    I thank you for having these hearings.
    As a member of this committee and the Appropriations 
subcommittee, I am particularly interested in the costs 
associated with planning efforts.
    Now, we have had 15 hearings in the Appropriations 
subcommittee; I have yet to see a cost estimate for all 
transition activities. In the February 12 response letter, 
Secretary Chertoff stated that the Department did not have an 
itemized budget for the Department's transition team. However, 
your testimony discusses the Department's implementation 
efforts in fiscal year 2009-2010.
    So, as you know, implementing programs costs money. The 
absence of a formal budget proposal could lead to the lack of 
executive accountability. So it is not only the building--and 
as you recall, Mr. Price put the money in for the building, and 
it seems it has been a tool used on the floor to fund other 
goals of various members.
    But I think this is absolutely critical. I would like to 
know how much will transition activities cost? Will the 
Department be able to prepare and submit to us an itemized 
budget?
    Mr. Schneider. Congresswoman, the answer to that question 
is, we cannot submit an itemized budget because--and I think in 
the earlier discussion in response to the Chairman's question 
and my response to him, I answered that question. The reason is 
because it is part of my job; it is part of Secretary Duke's 
job.
    I mean, planning for a transition is an inherent part of 
everybody's job, with the exception of that law that authorized 
the X hundred thousand dollars for the NAPA study of 
transition. So, you know, to try and figure out what the cost 
of every person's time is, in planning for a transition, 
frankly, with all due respect, that is impractical.
    I mean, for example, the deputy in ICE is a career civil 
servant. He will assume the responsibilities as the head of 
ICE. So what I do, for example, is I try and work with that 
second-level team to understand a little bit more about the 
Department.
    So--I had to go make a trip out to the West Coast, so I 
took several people, including him, to spend a weekend, to get 
a better understanding of how the different Departments or 
different components within the Department work together, not 
necessarily his people. I wanted him to see what happens in 
terms of the Seattle Harbor, okay? I wanted him to see how the 
Border Patrol in Artesia gets trained.
    So from a practical standpoint his hours, if he was 
basically logging a clock or et cetera, he would have logged 
that self-development, transition, et cetera. We have that 
happening throughout the Department. I don't get a special 
budget for it, we don't get a special budget other than this 
one exception. I pointed out in my testimony, I believe, that 
not only did we have enough money to do the NAPA study, but 
more importantly, or as important, we are able to fund the 
Council on Excellence in Government effort, which is going to 
help us in our interfaces with the other Departments.
    So I don't know how I can come up with a budget, if you 
will, that would stand alone for transition when it is an 
inherent responsibility, frankly, of an awful lot of people in 
this Department to make this successful.
    Mrs. Lowey. What I am trying to understand, if you are 
going to use your baseline funds for transition activities, 
doesn't that take away from the traditional, everyday 
activities?
    For example, you are going to conduct exercises with 
interim administrators. Exercises cost money. Has this been 
discussed at all? Are there plans being made?
    Mr. Schneider. We do exercises as a matter of routine. What 
changes and what we are changing is who participates. We have a 
full-blown exercise program. What I try and do is make sure the 
right people participate.
    I will give you an example. The Secretary had arranged for 
us to do an exercise, very limited exercise, National Capital 
Region, governor of Virginia, governor of Maryland, the mayor 
of the District of Columbia and himself. He was out of the 
country at the particular point in time when it actually took 
place, so I acted for him.
    I made sure that I had in the room about seven other 
people, okay, who would be in leadership positions during the 
transition to understand what would happen in that particular 
case. So they read the background material, they ran the 
scenario, and they watched the dialogue between the two 
governors, the mayor and myself to get a more hands-on feel of 
what types of things happen in this type of interaction.
    So it is making sure that the right people who are going to 
be here after January 20 take advantage of existing 
opportunities in a more focused and disciplined manner. That is 
what we are really trying to do.
    Mrs. Lowey. Well, I thank you for your efforts.
    My time is up, but the role of the Department is so 
critical. So many people have worked so hard to get it 
organized, moving in the right direction, that I just hope that 
there are people such as yourself focused on keeping the 
operation moving along. That will get the budget that the 
chairman and others have requested.
    Thank you very much, Mr. Chairman.
    Chairman Thompson. Thank you very much. I think the acting 
ranking member has a request of the Chair.
    Mr. Rogers. Thank you, Mr. Chairman. To coincide with the 
comments that Ms. Harman made and I made about the need for 
reforms and consolidation of jurisdiction, I would like to ask 
unanimous consent that the April 19 New York Times editorial, 
calling for that reform, be entered into the record.
    Chairman Thompson. Without objection.
    Mr. Rogers. Thank you.
    [The information follows:]
              Submitted for the Record by Hon. Mike Rogers
                     the unfinished reforms of 9/11
New York Times, April 19, 2008.
    When the independent 9/11 commission warned that the nation's 
intelligence defenses were a shambles, Congress embraced nearly every 
call for reform. Guess which one it didn't? It has conveniently 
overlooked the commission's call to consolidate Congress's multiple 
intelligence oversight committees and subcommittees--which ends up 
leaving no one with real oversight power.
    Any reduction of political turf was a nonstarter.
    Now the idea has been at least partially revived. In a letter last 
month to the Senate leadership, 14 of the 15 members of the 
Intelligence Committee--which oversees intelligence operations--
recommended creating a new intelligence subcommittee to oversee 
appropriations. The subcommittee would include members who sit on both 
the full intelligence and appropriations panels.
    Over on the Senate Appropriations Committee--the jedi masters of 
the budget universe--top members were not in a compromising mood and 
quickly volleyed in their own letter insisting that there is no such 
need. For them to surrender any of their authority, the appropriators 
declared, would hamper oversight.
    We stand with the 9/11 commission that the national interest 
requires the two houses' intelligence committees to fully assume 
appropriation authority. Considering the thicket of egos, the proposed 
compromise is a start. The overlap would begin to address the situation 
in which the appropriations committees handle intelligence as only one 
of many specialties.
    The leadership should let this debate emerge from the shadows and 
be settled in the public interest. If there is to be better oversight 
of the intelligence agencies--with their tens of billions in secret 
budget operations--the people who control the purse strings must have 
knowledge, expertise and clear responsibility.

    Chairman Thompson. The gentleman from New Jersey, Mr. 
Pascrell, is recognized for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Schneider, thank you for your candor. I trust it will 
continue. I also want to thank Assistant Secretary Duke; when 
she appeared before us, she was very forthright.
    I want to start off by saying, I find it--I am trying to 
find the word--``alarming,'' let me use that word for now--that 
Secretary Chertoff didn't appear before this committee to 
discuss the Department's transition process, as well as 
refusing, I think, to share documents with the committee in 
this regard.
    I hope you understand the mission, the task that we have as 
a committee. We are supposed to conduct rigorous oversight of 
the Department of Homeland Security. You know that, Mr. 
Secretary; and the Department's lack of cooperation in this 
regard, I think, is a clear attempt to circumvent this 
committee's oversight of the Department, particularly when it 
comes to transition. Because we don't know who the President is 
going to be, but whoever that President might be, they need to 
have all of this information available to them to make the 
decisions.
    I find this really troubling when we know from the recent 
past that al Qaeda has often executed its attacks on nations 
around times of governmental transitions. The historic nature 
of this thing is something we need to explore. The Department 
of Homeland Security, among all other Departments, must be 
fully prepared for that critical changeover to the next 
administration.
    Quick question: Has the Department developed a priority 
list--``yes'' or ``no,'' a priority list of action items that 
the Department of Homeland Security's successors may want to 
address at the outset of the new administration?
    Mr. Schneider. It will be in the transition plan that I am 
required as the under secretary to submit to Congress in 
October, 2008.
    Mr. Pascrell. So we don't have anything like that right 
now; is that what you are telling me?
    Mr. Schneider. That is correct.
    Mr. Pascrell. Okay. Thank you.
    Now, 2 weeks ago----
    Chairman Thompson. Would the gentleman yield? I will yield 
back.
    You say you are required by Congress?
    Mr. Schneider. Yes.
    Chairman Thompson. Can you provide the committee with your 
point of reference on that?
    Mr. Schneider. Yes, I will provide--yes, sir, I will 
provide the segment of the law, the specific responsibilities 
assigned to the under secretary, as well as the specific 
direction by the Congress that the under secretary for 
management is authorized to stay as the under secretary for 
management past the--at the start of the new administration 
until there is a Senate-confirmed appointee in that position.
    The other thing that law says basically is, it is the 
consensus of the Congress that the President or the incoming 
President should encourage the under secretary for management 
to stay in this position until there is a Senate-confirmed 
appointee because of the critical nature of that position.
    Chairman Thompson. I understand.
    But you are making reference to October.
    Mr. Schneider. That is what I believe is the date specified 
that the under secretary for management is required to deliver 
to the Congress the transition plan.
    Chairman Thompson. Well, we will look at it. But I think 
there is some difference of opinion as to that being a drop-
dead date for the information.
    But I yield back to the gentleman.
    Mr. Pascrell. Now--Mr. Chairman, correct me if I am wrong--
in February you sent a letter to the Department and key 
components of the Department about the committee's intent to 
examine the transition process that I have been asking the 
Secretary about.
    The committee learned that both--since that time, the 
committee learned that both you and Mr. Chertoff will not 
answer the questions, and directed component offices not to 
answer the questions or the committee's requests. Given that it 
is the Department's position that you are the person in charge, 
I am going to ask you some very, very specific questions.
    Two weeks ago the committee received--all of us received 
this, the transition planning, 7 pages. Power--I love 
PowerPoints; they usually are very insignificant, but I love to 
look at them anyway. The committee received that PowerPoint 
presentation, what the deputy under secretary for management, 
Elaine Duke, purports is the Department's transition outline.
    While this document has some helpful information in it, I 
find it difficult to believe that this PowerPoint is the 
Department's complete transition planning document. I want you 
to answer these questions, ``yes'' or ``no.''
    Is this PowerPoint the sum total of the Department's 
transition planning documentation?
    Mr. Schneider. No.
    Mr. Pascrell. Okay. Because not included in here is contact 
information. Whom do we call in each of the components? No 
itemized budget. No program priorities, Mr. Chairman, that I 
can find; I will stand corrected. No program priorities for the 
next administration. No outline of the political appointees to 
the Homeland Security Committee.
    You cannot present to us documentation, you can't do it, 
and at the same time say that this is a comprehensive picture 
of what the next administration should know.
    So if it is ``no,'' as you said, I want this committee to 
be provided with a complete outline that the Department is 
using as a guide for the transition to the committee by May 23.
    Mr. Chairman, I don't think I am out of order when I ask 
this. If the Department does not meet the deadline, Mr. 
Chairman, I ask you to consider calling a meeting to subpoena 
the information.
    Am I out of order in requesting that?
    Chairman Thompson. The gentleman is not out of order.
    Mr. Pascrell. Mr. Schneider, would you answer the following 
questions ``yes'' or ``no''? For each of the following 
components I would like you to answer ``yes'' or ``no'' as to 
whether they have received a Department-wide transition 
outline. Is the question clear?
    Mr. Schneider. No, Congressman, it is not. I don't know 
what you mean by an outline. Outlines mean different things to 
different people. Before I answer that question, I would like 
to know specifically what your intent would be for an outline, 
because it may be different than mine.
    Mr. Pascrell. Well, in a transition of each of the 
components, I am going to name the components, and you are 
either going to answer ``yes'' or ``no,'' whether or not we 
have in our hands that information.
    Mr. Schneider. I don't know what you mean by an outline, 
sir. If you could specify the details of what an outline would 
be, I would answer it.
    Mr. Pascrell. Excuse me, a department-wide transition 
outline of each of the components that I am about to ask you 
about.
    Mr. Schneider. I don't know what you mean by--I am sorry, 
sir, but I do not know what you want to see in an outline.
    Mr. Pascrell. Very, very clear, even in your PowerPoints, 
you are supposed to give us specific information about some of 
the things I just outlined.
    For instance, whether it is itemized budgets, whether it is 
who do we contact in each of the departments, whether it is the 
political appointees in each of the components. I think this is 
important information.
    We have a right to know that, don't we?
    Mr. Schneider. Yes, sir.
    Mr. Pascrell. Well, then let me go on.
    Chairman Thompson. Will the gentleman yield just a minute?
    Mr. Pascrell. Sure.
    Chairman Thompson. Mr. Schneider, I think the point from me 
is, the only thing we have is this 7-page document. You 
answered to Mr. Pascrell that that was not the only document 
that was involved in the transition planning. I think what we 
need as a committee is whatever information or documentation 
that you have that will go into your planning of the transition 
for the Department.
    Mr. Pascrell. We would like it by May 23.
    Excuse me for interrupting.
    We would like it by May 23. Is that request clear, Mr. 
Secretary?
    Mr. Schneider. I will look at what documentation we have 
and, if appropriate, provide it.
    Mr. Pascrell. What do you mean ``if appropriate''?
    Mr. Schneider. In my letter, Congressman, in response to 
Chairman Thompson's letter, I outline very specific types of 
documents that we consider inappropriate to provide. I would 
refer back to that letter.
    Mr. Pascrell. Look, we have oversight.
    Mr. Schneider. I know you do.
    Chairman Thompson. You are stretching your letter, your 
response.
    You reference executive material, and I think what we want, 
and again I referenced it, that there was some difference of 
opinion.
    Mr. Schneider. Yes, sir.
    Chairman Thompson. If we are in our jurisdictional track on 
the committee, I think your limit of executive material from 
our benefit is, in fact, not your call; and we will press it.
    But I think if you go back and look at my point, you will 
see that as long as this committee is within its jurisdiction, 
that executive material reference does not stand muster in 
terms of denying us access to the information.
    Mr. Schneider. Yes, Mr. Chairman. In response to the 
earlier discussion--earlier in this hearing, I agreed that 
given the context of the discussion that took place with you, I 
would go back and look at the specific requests and see how we 
could better comply. That is what I agreed to do.
    Chairman Thompson. I think--I yield back to the gentleman.
    Mr. Pascrell. Just in conclusion, Mr. Schneider, Secretary 
Schneider, do you think that this committee has a right to know 
who the political appointees are to Homeland Security?
    Mr. Schneider. You have a right, and they are well known. 
Yes.
    Mr. Pascrell. They are?
    Mr. Schneider. Yes, sir.
    Mr. Pascrell. Then you have no problems giving them.
    Mr. Schneider. I have already given them. Just for the 
record, Congressman, we have provided, and I think we continue 
to provide--I can double-check--to the chairman's staff a list 
of every one of our staffing plans for the Department in terms 
of--at the executive level. They list every one of the 
political appointees.
    I mean, we provide this information.
    Mr. Pascrell. Mr. Chairman, I would hope that by May 23 the 
information that is requested, very clear, will be given to us. 
I hope that is important.
    I know you are the messenger. With all due respect, I think 
you are doing a good job. But we want that information or else 
we are going to subpoena it. I mean, it is clear?
    It is clear. Thank you.
    Chairman Thompson. Thank you.
    I will now recognize the gentlelady from New York for 5 
minutes, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Honorable Mr. Schneider, I am going to pick up on Mr. 
Pascrell's assertions here; and I would like to get your 
response to very specific terminology by you and the 
Department, because in the February 12 response letter to our 
chairman, the Department claims that the transition-related 
documents would not be shared with the committee on the grounds 
that they constitute executive branch materials. You also echo 
the same sentiment or the same position in a March 4 response 
letter to the committee.
    Can you explain what the term ``executive branch 
materials'' means and what is the authority that you are citing 
for this claim? Is it a statutory definition? Case law? 
Executive order? What is this ``executive branch material''?
    Mr. Schneider. I would--first of all, I don't have that 
March 4 letter in front of me. I would, since the nature of 
what you are asking is more of a legal-type question, I would 
prefer to get back to you with our basis for that.
    Ms. Clarke. Yeah, because that is the basis under which we 
are all talking right now.
    Chairman Thompson. Will the gentlelady yield?
    Ms. Clarke. Certainly.
    Chairman Thompson. We have copies of the March 4 letter 
that Congresswoman Clarke is referencing, and it is under your 
signature.
    Mr. Schneider. Yes, sir. I need to go back and look at the 
basis that I asked for.
    Chairman Thompson. I think the point is, that ``executive 
branch material'' question is tantamount to this committee 
having access to the information to do our job.
    You still want some time to----
    Mr. Schneider. Yes. The reason is, I think the operative 
words are--putting this matter in context, it is important to 
note, these efforts are being prepared by the executive branch 
for an incoming administration and, as such, would be 
inappropriate to send to the Congress in an interim fashion 
before it was received by the incoming administration.
    Chairman Thompson. So you don't think we have anything to 
do with looking at the Department for the transition?
    Mr. Schneider. No, sir. It gets back to some of the very 
specific documentation that was specified in your original 
letter. That is what I agreed to go back and look at, given the 
context in which we had this earlier discussion.
    You asked me to go do that, and I agreed to do that.
    Chairman Thompson. I appreciate you for it, and I look 
forward to getting the information.
    But I don't think I can overemphasize the interest on the 
part of a number of members to get the information. So if the 
questions sometime are repetitive, they are based on the 
interests of those members.
    Mr. Schneider. Yes, sir.
    Chairman Thompson. I yield back.
    Ms. Clarke. Yes. Mr. Chairman, you know, I consider this, 
in effect, a denial of the request.
    I mean, there is no way that you can say that until there 
is a new administration in place that we can't have the 
information, which is--we are going to still be in session. Our 
constituents--and I can speak for myself as a New Yorker--need 
some reassurance, particularly in light of a number of the 
challenges that Homeland Security has faced nationwide, not 
only in the area of terrorism, but in the area of responding to 
natural disasters and everything else, that there is in effect 
a transition plan, a cogent one.
    We all recognize and appreciate the level of security that 
must be in place. But at the same time it would be derelict of 
duty for us not to be able to say to the American people that 
we are aware that this has been worked through.
    You know, that is a big stretch that you are asking of our 
chairman and of this committee by, in effect, throwing up 
``executive branch material.'' There is going to be a point 
where that executive branch will not function as it does 
regularly. That is what the transition is about.
    So this is really the crux of the matter. I hope that you 
will really take into account what my colleagues have said here 
today, because it is critical to us. It is critical to us as 
Members of Congress with the responsibility of oversight, and 
it is critical to us as Representatives of constituencies that 
are relying on our having the knowledge and the faith that we 
have put things in place in the eventuality of anything 
happening in that interim period.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much. I want to thank the 
acting deputy secretary for--hopefully somebody's cell phone 
will--for your testimony. I want you to make every effort to 
get the information relative to the transition back to us by 
May 23.
    I mean, we are not going to press you this hard, but we 
think it is reasonable for the committee of jurisdiction to 
have access to those planning documents and whatever you have 
in place addressing transition. I look forward to getting that 
and other information that committee members--Mr. Davis asked, 
and a couple of others, during the questioning.
    Other members might have questions. If they do, we ask that 
you respond expeditiously in writing to those questions.
    Mr. Schneider. Yes, sir.
    Chairman Thompson. Hearing no further business, the 
committee stands adjourned.
    [Whereupon, at 11:54 a.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


 Questions From Chairman Bennie G. Thompson of Mississippi for Paul A. 
  Schneider, Acting Deputy Secretary, Department of Homeland Security

    Question 1. Please provide the committee with the names, titles, 
and contact information for the specific individual's responsible for 
the transition process within each of the following components:
  <bullet> Transportation Security Administration (TSA)
  <bullet> Federal Emergency Management Agency (FEMA)
  <bullet> Intelligence and Analysis (I&A)
  <bullet> Science and Technology (S&T)
  <bullet> Coast Guard
  <bullet> Customs and Border Protection (CBP)
  <bullet> Immigration and Customs Enforcement (ICE)
  <bullet> National Protection and Programs Directorate (NPPD)
  <bullet> Secret Service
  <bullet> Domestic Nuclear Detection Office (DNDO)
  <bullet> Office of the Gulf Coast Coordinator
  <bullet> Privacy Office
  <bullet> Office of Health Affairs
  <bullet> Office of Civil Rights and Civil Liberties
  <bullet> Director for Operations and Administration
  <bullet> Office of General Counsel
  <bullet> Management Directorate
  <bullet> Office of Policy
  <bullet> Office of Counternarcotics Enforcement
  <bullet> Federal Law Enforcement Training Center
  <bullet> Office of Operations Coordination
    In addition, please indicate whether these individuals are 
government employees or contractors, and if they are government 
employees, whether they are political appointees or career civil 
servants.
    Answer. Section 341(a)(9)(B) of Title 6, United States Code, vests 
the Under Secretary for Management (USM) with the responsibility for 
managing the Department's transition. The transition effort is 
centrally coordinated through the Office of the USM, with oversight 
provided by the Acting Deputy Secretary, Mr. Paul A. Schneider, as he 
currently encumbers the USM position. The day-to-day transition effort 
is being carried out by the Deputy Under Secretary for Management, Ms. 
Elaine Duke, a career civil servant, and her core transition team. The 
core transition team consists of four individuals supported by 
approximately 45 senior level employees located within the Components 
who are serving as either a Senior or Deputy Transition Officer. In 
addition, this June, RADM John Acton will be detailed to the USM's 
office from the United States Coast Guard to serve as the career DHS 
Transition Director to Elaine Duke. Below is a breakdown of the USM 
Transition Team. In Enclosure 1,\1\ we are providing the names and 
titles of both the Senior and Deputy Transition Officers within each 
Component.
---------------------------------------------------------------------------
    \1\ The above-referenced materials have been retained in committee 
files.

------------------------------------------------------------------------------------------------------------------------------------------------
Transition Executive: Paul A. Schneider...  Sets Vision for 2009
                                             Transition.
Career Transition Senior Official: Elaine   Leads overall Administration
 Duke.                                       Transition effort:
                                                Oversees planning and
                                             execution of Transition
                                             Planning Efforts.
                                                Ensures operational
                                             continuity through change
                                             of Presidential
                                             Administration.
USM Core Transition Team:                   Manages day-to-day
    Transition Director: RADM John Acton.    Administration Transition
    Senior Transition Officer: Elaine        effort.
 Rigas.                                         Plans and coordinates
    Deputy Transition Officers               development and
 (Detailees):                                facilitation of
    --Damian Kokinda, United States Secret   informational materials,
 Service.                                    briefings, training and
    --Tiffany Lightboum, Science and         other orientation
 Technology.                                 activities to ensure smooth
                                             transition forthe new
                                             leadership.
------------------------------------------------------------------------

    Question 2. Two weeks ago, the committee received a 7-page 
PowerPoint presentation that Acting Under Secretary for Management 
Elaine Duke purports is the Department's transition ``outline.'' While 
this document contains some helpful information, you stated in your 
testimony that this PowerPoint is not the Department's complete 
transition planning document.
    Answer. The referenced outline is not the Department's Transition 
Outline but an Executive Summary of our Transition Planning Efforts. 
The document which I have provided as Enclosure 2 \2\ is the 
Department's Transition Briefing Book Outline and identifies what each 
component will provide to the incoming Secretary to ensure a smooth 
transition. Enclosure 3 \2\ is a list identifying the existing 
memoranda, plans, documents and strategies that are related to our 
transition and succession planning efforts. We have placed all of the 
documents in a binder and hope this organized layout will allow you to 
easily review the efforts currently completed or underway to ensure a 
smooth transition.
---------------------------------------------------------------------------
    \2\ The reply provided is for official use only and has been 
retained in committee files.
---------------------------------------------------------------------------
    Question 2a. Please provide the committee with the complete outline 
that the Department is using as a guide for the transition.
    Answer. Please see Enclosure 2 \2\ for the Department's Transition 
Briefing Book Outline listing the information each of the Components 
will provide to the incoming Secretary to ensure a smooth transition.
    Question 2b. Please provide the committee with the complete 
outlines that each of the components referenced in Question 1 received 
from the Department for transition planning.
    Answer. Please see Enclosure 2 \2\ for the Department's Transition 
Briefing Book Outline listing the information each of the Components 
will provide to the incoming Secretary to ensure a smooth transition.
    Question 2c. Please provide all other existing memoranda, plans, 
documents, or strategies that the Department or the components 
referenced above have prepared or are using for the upcoming 
transition.
    Answer. In an effort to provide to you the requested documents in 
an orderly and organized manner, please see Enclosure 3 \2\ which is a 
list identifying the existing memoranda, plans, documents and 
strategies that are Transition related. We have placed all of the 
documents in a binder and hope this organized layout will allow you to 
easily review the efforts currently completed or underway to ensure a 
smooth transition.
    Question 3. In the February 12, 2008 response letter, Secretary 
Chertoff stated that the Department did not have an itemized budget for 
the transition team. However, your testimony discusses the Department's 
implementation efforts in fiscal year 2009 and fiscal year 2010. You 
also discussed weekend trips taken to prepare for transition. Please 
provide all budget information, including an itemized budget, for the 
Department-wide transition team and the components referenced in 
Question 1.
    Answer. There is no specific budget allocated for transition. 
However, Public Law 110-28 appropriated for the Office of the Under 
Secretary for Management $900,000 for an independent study with the 
National Academy of Public Administration (NAPA) to compare the 
Department of Homeland Security senior career and political staffing 
levels and senior career training programs with those of similarly 
structured cabinet-level agencies as detailed in House Report 110-107.
    The Department of Homeland Security engaged NAPA to conduct this 
study for $548,134 and then engaged the Council for Excellence in 
Government for $305,127 to help DHS ensure it is prepared to continue 
operations in the face of leadership changes such as those attendant to 
an administration change. The engagement's emphasis will be the 
Department's homeland security interactions with other agencies such as 
the Departments of State, Treasury, Energy, Commerce, and Justice. 
These efforts have been coordinated with the House Appropriations 
Committee staff.
    We view the Transition Planning efforts as one of the 
responsibilities that fall under the Office of the Under Secretary for 
Management and not something that requires a separate budget or is 
deemed as a Program. The implementation efforts for fiscal year 2009 
and fiscal year 2010 are for the Department's Major Programs, such as 
Deepwater, the Secure Border Initiative, and the Western Hemisphere 
Travel Initiative, and not transition.
    My reference in my testimony to the weekend trips I make to the 
field locations are intended to discuss Department operations and are 
not part of the transition planning efforts.
    Question 4. How many FTEs does DHS currently have? How many actual 
employees does DHS currently have? How many contract employees does DHS 
currently have? How do these numbers relate the Department's 2007 
figures? What, if any, changes should we expect to see in these numbers 
by January 20, 2009? Please provide a comprehensive list of staffing 
numbers, including a comparison of the number of FTEs assigned versus 
the number of actual ``on board'' employees and a listing of the ratio 
of FTEs to contractors for fiscal years 2007, 2008, and 2009. Please 
include pay plan and appointment type. (For any of these requests that 
may require the retrieval of data from Department of Homeland Security 
or Office of Personnel Management databases, we will work with your 
staff to craft file specifications that will enable them to easily 
retrieve the data in a form that will meet our needs.)
    Answer.
2007
    FTEs: 186,804.
    Onboard strength: 182,397.
    Contractor employees: DHS does not track contractor FTE or onboard 
strength because we often acquire support on a fixed-price basis or 
based on performance objectives. The number of personnel the contractor 
employs is not transparent or relevant since we are paying for a 
deliverable or outcome rather than man-hours. In those instances where 
DHS is acquiring a specific ``level of effort'' or man-hours, 
contractors may use several employees to accomplish tasks that total 
the number of man-hours in one FTE. While it is not possible to track 
or provide this information currently, we are working with the Chief 
Procurement Office to address this concern of Congress.
2008
    Current FTEs: 197,055.
    Current onboard strength: 202,060.
    Contractor employees: DHS does not track contractor FTE or onboard 
strength because we often acquire support on a fixed-price basis or 
based on performance objectives. The number of personnel the contractor 
employs is not transparent or relevant since we are paying for a 
deliverable or outcome rather than man-hours. In those instances where 
DHS is acquiring a specific ``level of effort'' or man-hours, 
contractors may use several employees to accomplish tasks that total 
the number of man-hours in one FTE. While it is not possible to track 
or provide this information currently, we are working with the Chief 
Procurement Office to address this concern of Congress.
    Question 5. Please provide a description of the major programmatic 
accomplishments of fiscal year 2007 and fiscal year 2008 for the 
Department and for each of the components referenced in Question 1.
    Answer. Please refer to Enclosure 4,\3\ the Department of Homeland 
Security Annual Performance Report for fiscal years 2007-2008, for 
information on the Department's major programmatic accomplishments.
---------------------------------------------------------------------------
    \3\ The above-referenced materials have been retained in committee 
files.
---------------------------------------------------------------------------
    Question 6. Please provide a description of the fiscal year 2009 
and fiscal year 2010 goals for each of the components referenced in 
Question 1.
    Answer. Please refer to Enclosure 4,\3\ the Department of Homeland 
Security Annual Performance Report for fiscal years 2007-2008, for 
information on the Department's future goals.
    Question 7. For the Department and for the components listed in 
Question 1, please provide a priority list of action items that the 
Department, agency and office's successors may want to address at the 
outset of the new administration. Please provide a justification for 
each priority item and detail the recommended actions for each 
priority.
    Answer. In Enclosure 2,\4\ we are providing what will likely be 
placed in the briefing materials for the incoming Secretary. In Tab 4, 
Section 7,\4\ we list what we believe are the Department's major 
programs. In Tab 13, Section 1,\4\ we also identify what we believe are 
the important issues for the incoming Secretary to address in his or 
her first 30-60-90 days. Obviously the priority of these issues may 
change over time. Again, providing a justification for each priority 
item, as well as a detailed recommendation for action on each priority, 
would be inappropriate in a response to Congress before the items and 
prioritization are shared with the incoming administration, as is 
required by law. Such documents are pre-decisional in that they 
comprise no more than internal drafts for consideration by the 
decision-makers within the new administration. While we are committed 
to working with the Congress we must each respect the separation of 
powers set forth in our Constitution.
---------------------------------------------------------------------------
    \4\ The reply provided is for official use only and has been 
retained in committee files.
---------------------------------------------------------------------------
    Question 8. Please provide a list and description of any new 
positions you anticipate creating to facilitate a smooth transition 
(e.g. the recently created Deputy Under Secretary for Management), as 
well as the plan and criteria for filling any such new position, both 
at the Department level and for each component referenced in Question 
1.
    Answer. We do not anticipate creating more positions.
    Question 9. For the Department and components listed in Question 1, 
please provide a listing of contracts with a total dollar value in 
excess of $100 million that are expected to carry over through the 
transition. This information shall be itemized by component, the name 
of the contractor, description of the project, and dollars obligated.
    Answer. Please see Enclosure 5 \5\ for a listing of contracts with 
a total dollar value in excess of $100 million that are expected to 
carryover through the transition.
---------------------------------------------------------------------------
    \5\ The above-referenced materials have been retained in committee 
files.
---------------------------------------------------------------------------
    Question 10. Please provide the statutory authority that makes 
explicit reference to the October 2008 date for the Department of 
Homeland Security's submission of its overall transition plan to 
Congress.
    Answer. I was incorrect regarding the October 2008 date. Section 
341(a)(9)(B) of Title 6, United States Code requires the overall 
transition and succession plan to be made available to the incoming 
Secretary and Under Secretary for Management by December 1, 2008. Below 
is an excerpt of the law:

    Sec. 2405. Under Secretary for Management of Department of Homeland 
Security. (a) Responsibilities.--Section 701(a) of the Homeland 
Security Act of 2002 (6 U.S.c. 341) is amended----
            (1) by inserting ``The Under Secretary for Management shall 
        serve as the Chief Management Officer and principal advisor to 
        the Secretary on matters related to the management of the 
        Department, including management integration and transformation 
        in support of homeland security operations and programs.'' 
        before ``The Secretary'';
            (2) by striking paragraph (7) and inserting the following:
            ``(7) Strategic management planning and annual performance 
        planning and identification and tracking of performance 
        measures relating to the responsibilities of the Department.''; 
        and
            (3) by striking paragraph (9), and inserting the following:
            ``(9) The management integration and transformation 
        process, as well as the transition process, to ensure an 
        efficient and orderly consolidation of functions and personnel 
        in the Department and transition, including----
                    ``(A) the development of a management integration 
                strategy for the Department, and
                    ``(B) before December 1 of any year in which a 
                Presidential election is held, the development of a 
                transition and succession plan, to be made available to 
                the incoming Secretary and Under Secretary for 
                Management, to guide the transition of management 
                functions to a new Administration.''.

    DHS has every intention of complying with the statutory framework 
created by Congress and providing the materials to the incoming 
administration in the timeframe specified. DHS is also fully committed 
to working with the Congress regarding transition planning. Transition 
and succession planning documents are being provided as stated in the 
text of this letter. However, it is important to distinguish between 
transition planning documents and policy documents. Transition planning 
documents relate to the planning necessary to ensure a fully 
functioning Department during the transition between the current and 
future administrations. In contrast, policy documents relate to plans 
to assist the incoming administration with selecting and prioritizing 
its policy initiatives. We are fully committed to sharing the 
transition planning documents with Congress; however, it would be 
inappropriate to send policy documents to Congress before they are 
shared with the incoming administration as required by law. Such 
documents are pre-decisional in that they comprise no more than 
internal drafts for consideration by the decision-makers within the new 
administration. In the meantime, what we believe is appropriate to 
provide is the outline on what policy documents we expect will be 
included in the DHS Transition Briefing Book Outline.
    Question 11a. In the Department's response letter dated February 
12, 2008, the Department claims that transition-related documents would 
not be shared with the committee on the grounds that they ``constitute 
executive branch materials.'' You also echo that same position in your 
March 4, 2008 response letter to the committee. Please explain what the 
term ``Executive Branch materials'' means? Upon which authority are you 
relying to make such claim? What is the scope of items covered under 
``Executive Branch materials''? Explain in clear details, how does the 
term ``Executive Branch materials'' apply to the following:
    Contact name for the individuals responsible for the transition 
process within the components.
    Answer. Please refer to Enclosure 1 \6\ for the list of individuals 
working with the USM Core Team to carry out transition planning within 
their Components.
---------------------------------------------------------------------------
    \6\ The above-referenced materials have been retained in committee 
files.
---------------------------------------------------------------------------
    Question 11b. Budget for the transition team.
    Question 11c. Description of programmatic accomplishments.
    Question 11d. List of the goals for the components at DHS.
    Question 11e. List of staffing numbers at DHS, including FTEs and 
contractors.
    Answer. The Secretary's February 12, 2008 letter provided the 
committee with information about the Department's transition-planning 
efforts in response to the committee's February 7, 2008 inquiries. As 
indicated in that letter, there is no specific budget allocated for 
transition. Also, as indicated in that letter, as well as in my 
subsequent March 4, 2008 letter, many of the specific transition-
related documents requested by the committee are still under 
development. These materials, many of which contain sensitive Executive 
Branch information or communications, will be shared with the incoming 
administration in accordance with the framework specified by Congress. 
Indeed, a recent amendment to the Homeland Security Act specifies that 
DHS is to develop a transition and succession plan and make that plan 
available to the incoming Secretary and Under Secretary for Management 
before December 1, 2008 (See 6 U.S.C. 341).
    DHS has every intention of complying with the statutory framework 
created by Congress and providing the materials to the incoming 
administration in the timeframe specified. DHS is also fully committed 
to working with the Congress regarding transition planning. Transition 
and succession planning documents are being provided as stated in the 
text of this document. However, it is important to distinguish between 
transition planning documents and policy documents. Transition planning 
documents relate to the planning necessary to ensure a fully 
functioning department during the transition between the current and 
future administrations. In contrast, policy documents relate to plans 
to assist the incoming administration with selecting and prioritizing 
its policy initiatives. We are fully committed to sharing the 
transition planning documents with the Congress; however, it would be 
inappropriate to send policy documents to the Congress before they are 
shared with the incoming administration as required by law. Such 
documents are pre-decisional in that they comprise no more than 
internal drafts for consideration by the decision-makers within the new 
administration. In the meantime, what we believe is appropriate to 
provide is the outline on what policy documents we expect will be 
included in the DHS Transition Briefing Book Outline.
    Question 11f. Finally, several times during your testimony you 
referenced the National Academy of Public Administration (NAPA) study 
that was mandated by Pub. L. 110-28. Upon completion of this study in 
May, please provide this committee an updated copy of the draft 
Department-wide transition plan and list of tasks associated with the 
Department-wide transition plan and the Components referenced in 
Question 1.
    Answer. NAPA expects to complete and release its study to the 
requestors, the Appropriations Committee by the end of May 2008. We 
have requested NAPA provide the committee a courtesy copy as well. The 
study focuses on the Department's executive staffing composition in 
terms of the number of vacancies, the type of senior leadership 
positions, and the allocation between career and non-career executives 
vis-a-vis other Federal Departments and Agencies. It is not a 
Department-wide transition plan. We are, however, providing in 
Enclosure 2 \7\ the Department's Transition and Succession Planning 
Outline. The Department of Homeland Security is committed to ensuring 
operational continuity through the change of Presidential 
administration and looks forward to your continued support as we work 
to achieve our mission. Should you have any questions, please contact 
the Office of the Under Secretary for Management.
---------------------------------------------------------------------------
    \7\ The reply provided is for official use only and has been 
retained in committee files.
---------------------------------------------------------------------------

                                 <all>

</pre></body></html>
